<html>
<title> - A DECADE OF THE TRAFFICKING IN PERSONS REPORT</title>
<body><pre>[Joint House and Senate Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





             A DECADE OF THE TRAFFICKING IN PERSONS REPORT

=======================================================================

                                HEARING

                               before the

           COMMISSION ON SECURITY AND COOPERATION IN EUROPE:
                        U.S. HELSINKI COMMISSION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2010

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via http://www.csce.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-205                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                  
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,          ALCEE HASTINGS, Florida, 
    Chairman                          Co-Chairman 
CHRISTOPHER DODD, Connecticut       EDWARD MARKEY, Massachusetts 
SAM BROWNBACK, Kansas               LOUISE McINTOSH SLAUGHTER, 
SAXBY CHAMBLISS, Georgia              New York 
RICHARD BURR, North Carolina        MIKE McINTYRE, North Carolina 
ROGER WICKER, Mississippi           G.K. BUTTERFIELD, North Carolina 
JEANNE SHAHEEN, New Hampshire       JOSEPH PITTS, Pennsylvania 
SHELDON WHITEHOUSE, Rhode Island    ROBERT ADERHOLT, Alabama 
TOM UDALL, New Mexico               DARRELL ISSA, California

                        EXECUTIVE BRANCH COMMISSIONERS

                  MICHAEL POSNER, Department of State
               ALEXANDER VERSHBOW, Department of Defense
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
             A DECADE OF THE TRAFFICKING IN PERSONS REPORT

                              ----------                              

                             JULY 14, 2010
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     2
Hon. Darrell Issa, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Chris Smith, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     2

                                MEMBERS

Hon. Laura Richardson, a Member of Congress from the State of 
  California.....................................................    38

                               WITNESSES

Luis CdeBaca, Ambassador at Large, U.S. Department of State 
  Office to Monitor and Combat Trafficking in Persons............     6
Maria Grazia Giammarinaro, Special Representative and Coordinator 
  for Combating Trafficking in Human Beings, Organization for 
  Security and Cooperation in Europe.............................    10
Jolene Smith, CEO & Co-Founder, Free the Slaves..................    28
Holly J. Burkhalter, Vice President for Government Relations, 
  International Justice Mission..................................    32

 
                      A DECADE OF THE TRAFFICKING
                           IN PERSONS REPORT

                              ----------                              


                             JULY 14, 2010

  Commission on Security and Cooperation in Europe,
                                                    Washington, DC.

    The hearing was held from 10:00 a.m. to 12:25 p.m. EST, SVC 
203/202 Capital Visitor Center, Washington, DC, Benjamin 
Cardin, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Benjamin Cardin, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Darrell 
Issa, Commissioner, Commission on Security and Cooperation in 
Europe; Hon. Chris Smith, Commissioner, Commission on Security 
and Cooperation in Europe; and Hon. Laura Richardson, 
Commissioner, Commission on Security and Cooperation in Europe
    Witnesses present:  Luis CdeBaca, Ambassador at Large, U.S. 
Department of State Office to Monitor and Combat Trafficking in 
Persons; Maria Grazia Giammarinaro, Special Representative and 
Coordinator for Combating Trafficking in Human Beings, 
Organization for Security and Cooperation in Europe; Jolene 
Smith, CEO & Co-Founder, Free the Slaves; and Holly J. 
Burkhalter, Vice President for Government Relations, 
International Justice Mission.

               HON. DARRELL ISSA, COMMISSIONER, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Issa. Good morning and welcome all to this hearing on 
trafficking in persons report. And our testimony today. I'm 
Congressman Darrell Issa. Congressman Smith and I did not 
expect to running the, initially, the hearing today. So if 
you'll bear with me as I kind of limp my way through 
introductions and so on, I hope you'll forgive me.
    The Helsinki Commission hearing on ``A Decade in 
Trafficking in Persons Report, The Link between Revenue 
Transparency and Human Rights.'' In the chairman's role as 
chairman of the Helsinki Commission, he has worked extensively 
with Cochairman Alcee Hastings and Chris Smith, among other 
colleagues, to end modern-day slavery. The Helsinki 
Commission's lengthy history and contribution to U.S. anti-
trafficking legislation and compliance, coupled with its close 
engagement with actors throughout.
    And with that, I will turn this over to the chairman. It's 
your opening statement.

                HON. BENJAMIN CARDIN, CHAIRMAN, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Cardin. Congressman Issa, great job. Let me just 
compliment you first. Welcome everybody. It's nice to see as 
much interest in this hearing as it really does deserve. And I 
want to compliment my colleagues. I am going to turn the gavel 
over to Congressman Smith because there has been no person in 
the Congress who has worked harder on this issue of trafficking 
than Congressman Smith. He brought this issue to the United 
States Congress and to the Helsinki Commission.
    And as Congressman Issa was saying, this is modern-day 
slavery. It is, I think, the best example of carrying out the 
comments of the 1975 Helsinki Final Accords dealing with human 
rights, to deal with workable ways. And as a result of the 
leadership of the Helsinki Commission, this issue was brought 
not only to the attention of the OSCE but to the entire world.
    As a result, we were able to get action within the OSCE, 
where every country has an action plan to deal with 
trafficking, whether it's an origin country, a destination 
country or a transit country. All three are involved in the 
problems of trafficking. And you cannot hide behind the fact 
that there is not a problem in your country if you are a 
transit country or you're an origin country or a destination 
country.
    And the TIP report, which was action passed by the United 
States Congress, implemented by the State Department, is the 
most effective tool and unique tool for diplomatic actions 
against countries that need to improve in dealing with this 
issue. So today we really continue the attention of the 
Helsinki Commission to make it clear that this is our highest 
priorities in dealing with human rights. And we now have a tool 
that we think has been improved over time.
    As you know, the TIP report this year for the first time 
evaluates our own country, the United States, in its progress 
on dealing with this issue. Every country can do better, 
including the United States of America. The challenges continue 
to be difficult, but thanks to the work of the Helsinki 
Commission, thanks to the work of Congressman Smith, thanks to 
the attention that the OSCE has given to this issue, thanks to 
the work of our ambassador, we are making progress and are 
affecting the lives of many, many people who otherwise would 
have been undetected and we are very proud of that record.
    And with that I'm going to turn the hearing over to 
Congressman Smith to act as chairman. I have to leave briefly 
to go up on the Senate floor to give a speech at some moment, 
but I will turn it over to Congressman Smith.

                HON. CHRIS SMITH, COMMISSIONER, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Smith. Thank you very much, Mr. Chairman. And thank you 
for your leadership. It's been a very collaborative effort on 
all human rights issues, including human trafficking. And thank 
you for your leadership. I think members of the staff certainly 
know it and maybe some of the audience--we just returned from 
Oslo for the OSCE parliamentary assembly.
    And frankly, it was a very productive one. There was not 
just one but several supplementary items. I offered one myself 
on human trafficking. Much of the conversation, especially in 
committee three dealing with human rights and humanitarian 
issues, was focused on trafficking. I mean, if there was a 
zeitgeist of this conclave, it was trafficking and efforts that 
needed to be deployed and employed to mitigate and hopefully 
end modern-day slavery.
    By way of background--and I know Ambassador Luis CdeBaca 
knows this, but Ms. Giammarinaro, welcome. It's so great to see 
you, the special rep for the OSCE. The TIP report almost didn't 
happen. In 1998 I introduced a Trafficking Victims Protection 
Act, held a whole series of hearings at the time. As Chairman 
Cardin knows, I chaired both the human rights and 
humanitarian--and international ops subcommittee of the foreign 
affairs and the Helsinki Commission. And we had a number of 
hearings on it.
    We heard from victims and probably the most compelling 
testimony we heard of all testimony was from the victims who 
told us of the degrading, horrific experiences that they 
underwent. And these were the brave women who came forward to 
tell us. Others were so broken, we went and visited them in 
places like St. Petersburg and elsewhere and heard their 
stories. And that helped move the legislation, but it was a 
bipartisan piece of legislation.
    Sam Gejdenson was the principal cosponsor. I was the prime 
sponsor. And we rewrote it five times. I mean, we kept getting 
new ideas. Holly Burkhalter will remember how many times we got 
another idea, we put it into the text. We finally got the 
markup, we passed it in the House and then it almost died in 
the Senate. It took a full year for the Senate to even take up 
the legislation. Then we got into a House-Senate conference 
committee that lasted almost to the sine die of that Congress, 
the end of that Congress, without being enacted.
    There was opposition and support within the Clinton 
administration. Some people thought at the State Department we 
should not have sanctions that are visited upon countries that 
show egregious behavior with regards to human rights--that was 
Madeleine Albright's opinion. I respect it, but disagreed 
respectfully. But through a left-right, conservative-liberal 
coalition, we were able to the Trafficking Victims Protection 
Act signed into law. And it has been 10 years now that this TIP 
report has been issued and it has gotten better every year in 
my opinion.
    In addition to the analysis of other countries, we also put 
into place up to life imprisonment for those who traffic. The 
hardest hurdles we had to deal with on my side of the aisle was 
it was those who did not want the T visa. They thought that the 
asylum provisions in the bill would lead to an exploitation of 
trafficking claims.
    We thought it would never happen. If anything, women were 
reluctant to come forward and tell their stories. That was the 
experience that we thought was reality and certainly it has 
turned out to be the case. The T visa is not being implemented 
in the way that many of us would like, but hopefully, hope 
springs eternal, we'll do more. We also put money in here for 
shelters, but we know we have a gaping hole on shelters 
domestically.
    Last year, Doctor, you'll find this very troubling, Shared 
Hope International did an analysis working with other NGOs and 
found that about 100,000 American girls, runaways--and Luis 
CdeBaca was at that launch when we explained and heard from 
Shared Hope International and Linda Smith, former 
Congresswoman, who was one of the leaders there, among others--
the average age is 13, 100,000 of our young girls, average age 
13, runaways, who are compelled into slavery, sometimes within 
48 to 72 hours after their running away. It's a terrible blight 
and obviously a waste and a terrible impact on those girls' 
lives.
    So we're doing more domestically, as we ought to. And in 
the '03 act and the '05 act--and you'll find this, I think, 
interesting--we focused on peacekeepers. I held a series of 
hearings on what the U.N. peacekeepers were doing in the DR 
Congo and elsewhere and it was a terrible, terrible situation, 
where young girls were being--again, 13 and 14 years old were 
being exploited for a loaf of bread or something far less. So 
that's another issue that we have included in our analysis, as 
well as in our policy.
    Let me just say that we have made real, significant, I 
think, progress within the OSCE. Twenty-one OSCE countries are 
now what we call ``tier one.'' Bosnia-Herzegovina is perhaps 
the best example of progress. Having started at tier three in 
2001 and attaining tier one just this year. Georgia went from 
tier three--in other words, an egregious violator--to tier one 
this decade and is completely surrounded by countries that are 
either tier three or tier two watch list.
    In the OSCE region, we do not have any countries that are 
yet officially tier three, but have many who have been on the 
watch list for more than two years, which means they must move 
up to tier two or down to tier three in the next reporting 
cycle. These countries include Azerbaijan, Moldova, Russia, 
Turkmenistan, Tajikistan and Uzbekistan. This year, 2010, is a 
pivotal year for these countries and we must make sure they 
have all the support that we can offer to help them move up 
rather than down this scale. And why do we do that? For the 
sake of the victims.
    Tier one countries can also get stuck and stop improving. 
The point of plateau is often maintained by a consistent demand 
for victims, making trafficking lucrative for organized crime 
and too prevalent for law enforcement to completely stamp out.
    We have many challenges before us in the next decade of 
anti-trafficking work, but perhaps one of the most important is 
ending the demand that drives trafficking. We must increase 
public awareness, not only of trafficking that is occurring 
around them, but also of buyer responsibility--women and 
children are not commodities--and perhaps add a section to the 
report highlighting how a country addresses the demand issue.
    Let me finally say that at the conference, I included two 
provisions among many in my supplementary item, Mr. Chairman, 
as you know, that deal with two best practices that we need to 
replicate everywhere and especially, Doctor, within the OSCE 
region.
    One deals with the airline partners against human 
trafficking. We held a briefing/hearing two weeks ago and heard 
from American Airlines--which is taking the lead, among others, 
but they are the leads--on trying to empower flight attendants 
especially, but the entirety of the flight crew, to be aware of 
the signs of human trafficking, what trafficking looks like.
    And if it doesn't look right, pass that information on to 
the captain, who signals law enforcement so that when these 
young women--and they're usually women or children--are 
deplaning, proper law enforcement can at least ascertain 
whether or not there is a trafficking situation.
    One of the flight attendants said that there were a half a 
dozen Russian women, didn't look right. This man just--it just 
didn't smell right. Sure enough, as they deplaned, all six of 
those women were trafficking victims and were saved.
    The other idea is the international Megan's Law. Megan 
Kanka was a 7-year-old little girl who was brutally slain in my 
hometown of Hamilton Township, New Jersey, in 1994. This young 
girl--didn't know, as did her parents, that across the street, 
a convicted pedophile lived and lurked. He got her into the 
house, raped her, and brutally murdered her. And that led to 
the enactment of in all 50 states and the District of Columbia, 
of Megan's Law. We now have a registry of about 700,000 sex 
offenders.
    And in one of my bilaterals with a Thai delegation, I 
remember asking them--this was four years ago--if we told you 
that so-and-so, who has been convicted of pedophilia, is 
heading out to your country, what would you do? They said, no 
way that person gets a visa.
    We began working on Megan's Law that day. It is out of the 
Foreign Affairs Committee, has been waved on by the Judiciary 
Committee. We understand Justice has some problem and whatever 
it is, we'd better work it out or we'll have this Congress end 
again without Megan's Law being enacted. Notice and information 
does empower and it will have the ability of ending the secrecy 
and the impunity that these people operate in.
    And finally, working with Holly, we do have a very 
important compact piece of legislation--well over a hundred 
cosponsors. We're trying to get that out of committee as well 
to provide significant amounts of money with Congress that 
enter into a compact, work out best practices and they will get 
enhanced funding to put into place a strategy to end 
trafficking within their country.
    So we've got a lot of things on the burner. If they sit on 
the burner, shame on us that we have not moved them forward to 
end this cruel practice. And thank you again for both of your 
tremendous leaderships.
    Mr. Cardin. Let me just observe something that Congressman 
Smith stated and that is, we, the U.S. delegation has regularly 
brought the issue of trafficking up at the parliamentary 
assembly. But this year was a little bit different. We found 
that many other delegations brought up the issue of 
trafficking, which means this is clearly a priority in many 
countries, which is a very healthy development and one that we 
think will yield great results in protecting those victims. 
Congressman Issa?
    Mr. Issa. Thank you, Mr. Chairman. And I'll be brief. I'd 
like to hear the testimony as soon as possible. When I came to 
Congress 10 years ago, trafficking tended to be looking at 
Thailand and the sex vacations and so on. And as time went on 
and we began looking around the world--and I'm getting to the 
TIP report--it became obvious that perhaps the least excusable 
offender of human trafficking is the United States. And until 
this year, we were not on the report.
    Inexcusable because of the 12 million people from outside 
our country who are here outside our laws, almost all of them 
came at least based on a promise of a better life, came on the 
promise of good things to the richest country in the world. And 
yet a great many of them were deceived. And in my own district, 
many of them never made it here because coyotes abandoned them 
in the desert, sometimes out of fear of apprehension, sometimes 
as part of a plan.
    So concentrating around the world should never be to the 
exclusion of taking a country that is probably the most 
unconscionable country not to deal with all forms of 
trafficking, including the importation either for sex or for 
general labor. And the United States is certainly a magnet of 
people who come with promises and often those promises are 
incredibly false.
    So as I look forward to the testimony and I look forward to 
working on areas around the world in which the countries have 
not paid attention yet, I hope we always remind ourselves that 
we have been the source of the dollars often for bringing 
people and encouraging trafficking from all kinds of countries 
around the world.
    And Congressman Smith was talking about a flight attendant 
who said it didn't look right with one Russian man and six 
Russian women, no surprise that often we are the magnet for 
that kind of activity. And so although they are the victims, we 
have to take some of the blame if we're not more comprehensive 
in our thwarting those attempts.
    So with that, Mr. Chairman, I yield back and look forward 
to the testimony.
    Mr. Cardin. Well, our first panel consists of two 
individuals whose positions were part of the effort of the 
Helsinki Commission not only to make sure these positions exist 
but to have the resources and support necessary to accomplish 
their important work. The bios of our two witnesses are 
included in the information that has been made available, so 
I'm just going to introduce them with their titles so we can 
proceed. And after that, I will turn the gavel over to 
Congressman Smith and I regret I do need to leave to be on the 
Senate floor.
    The first witness is Luis CdeBaca, the director of the 
State Department Office to Monitor and Combat Trafficking in 
Persons. And our other witness is Dr. Maria Giammarinaro, who 
is the OSCE special representative and coordinator for 
combating trafficking in human beings. Ambassador CdeBaca, glad 
to hear from you.

  LUIS CDEBACA, AMBASSADOR AT LARGE, U.S. DEPARTMENT OF STATE 
      OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS

    Mr. CdeBaca. Thank you, Sen. Cardin. And also to 
Representative Smith and Representative Issa on behalf of all 
the members of the commission. We'd like to thank you for your 
leadership and your commitment to ending modern slavery. The 
last 10 years has, as you've set forth, seen many successes in 
this fight.
    With more cases and more victim care has come a deepening 
of our collective understanding of this crime, both as far its 
scope, as far its type, as far as whose doorstep it should be 
attributed to. No longer simply being seen as the business of 
the trafficker and their victim but instead how, as Mr. Issa 
suggested, we ourselves often find, through the demand and the 
policies that we have in place, things that puts government and 
civil society on the hook as well.
    I'd like to highlight some of these understandings that 10 
years' worth of report have given us. And in first doing it, I 
think that taking us back to those early days may be 
illustrative. I think that when many of us started working on 
this in the 1990s, trafficking in person was a little-
understood crime that was perpetrated in the shadows.
    And if people thought of it at all, they thought of migrant 
women trapped by false promises only to find themselves in 
brothels and strip clubs, whether in Thailand, whether in 
Western Europe. The notion of the victim as a kidnapping victim 
as opposed to the victim as someone who had found themselves in 
a situation that they could not get out of. Victims who were 
enslaved in their own countries were largely left protected, 
such as it was, simply by exhortative international norms that 
had little if any reach inside of their national borders.
    As Ann Gallagher writes, ``In the 1990s, the discourse 
began to look at human trafficking per se, not just as an 
incidental consideration when dealing with other issues.'' 
Typically it was seen as an adjunct to migration policy, the 
legal or illegal regulation of prostitution or the work of 
human rights mechanisms around the world.
    Instead the understanding of the crime in the mid-1990s and 
since then has developed such that, again, quoting Ann 
Gallagher, ``The concept of trafficking international law does 
not just refer to the process by which an individual is moved 
into exploitation; it extends to include the maintenance of 
that person in the situation of exploitation.'' This shift to 
the conception of modern slavery, I would say, is the defining 
of the last decade of this fight and is reflected in the last 
10 trafficking in victims' reports.
    I appreciate the nod, Mr. Smith, as far as the constant 
improvement. I thought that I would actually bring, for old 
time's sake, a copy of the first TIP report.
    Mr. Smith. Can you tell if it was done on a selector?
    Mr. CdeBaca. It looks like it might have been originally. I 
think one of the things that we've seen and it's not just that 
the report is perhaps more authored and more comprehensive, but 
we also have a more comprehensive understanding of what 
trafficking is. Not just this notion of focusing on the 
enslavement as opposed to migration or movement, but also what 
the solution is--the three-P paradigm that you were so 
instrumental in helping us develop: prevention, protection and 
prosecution.
    I certainly knew as a young prosecutor that unless we had 
protection measures for the victims and unless we had 
prevention efforts in place that I would never be able to 
prosecute our way out of this. I think speaking for my 
colleague at that point, as a judge in Italy in the late 1990s, 
I know that this was something that Dr. Giammarinaro and I and 
others talked about, that we could not simply use law 
enforcement tools, that we had to have prevention and 
protection.
    But so too, we can't simply have an underground railroad 
manned by NGOs who help victims and never bring them forward 
for the traffickers to be punished. An interlocking paradigm. 
And that's the Palermo protocol and that's what the United 
Nations brought us as we were able to successfully get that in 
place at the same time as the TBPA.
    But too often we see a convention ratified, laws passed to 
conform and then--what else? To make it real takes coordination 
across agency lines, cooperation across governments and the 
engagement and leadership of regional fora like the OSCE. And 
frankly, it takes oversight and attention by parliamentarians, 
whether it's, for instance, Mr. Issa, the resolution on DHS and 
DOJ's efforts that I was able to help your staff with when I 
was still on the Judiciary Committee staff--or there's so many 
things that you've done, Mr. Smith, over the last few years.
    What that does is it propels the work of the international 
fora. It propels the work of the international fora. It propels 
the work of the agencies because they know that it's not simply 
going and occasionally dusting off the agency copy of the 
Palermo protocol. We've seen too many countries where that is 
the norm and I think that as we get more and more 
parliamentarians involved, it's less likely for that to be the 
only bureaucratic response.
    And we've seen results. Trafficking Victims Protection Act 
has three reauthorizations, the ongoing attention, the Palermo 
protocol, offices such as mine and that at the OSCE. But more 
importantly, the action plans and the laws that have come 
online in countries around the world. The victims who have been 
rescued and the offenders who have been prosecuted.
    Without the trafficking in victims report over the last 10 
years, I would suggest that we would have no real way to assess 
the progress that's been made, no baseline standards, no 
information about the number of laws that are out there, 
whether they're sufficient, whether there are victim care in 
place and no way to have meaningful diplomatic engagement.
    I certainly do not subscribe to what some unfortunately 
were saying in '98 and '99 to you, Mr. Smith, as far as the 
effect of the rankings and the effect of the naming. We have 
seen that as one of the most effective tools. It brings 
countries to the table in a way that a report that simply 
drifts off into the wind like a dandelion seed perhaps to take 
root or not does not do.
    And so we think that this is something that the secretary 
is committed to. As she said in June, the easiest way to get 
off tier three or tier two watch list is not to complain or to 
try to work the system; it's for countries to act.
    Now, we've talked a little bit about--I think you raised 
Bosnia and Herzegovina and that is a government that acted. It 
acted, but it didn't act alone. It acted because, in many ways, 
not just the United States but more importantly the OSCE, the 
Helsinki Commission. The partnership with the nongovernmental 
organizations in Bosnia, the convictions of the traffickers--I 
would lay that not only at the good work of the Bosnian 
government, but also for the OSCE's trafficking office, 
specifically at the time, the stability pact taskforce, which 
was funded and staffed in large part by the United States 
through the Helsinki Commission.
    It didn't just provide technical assistance, but rather 
through the convening authority, the OSCE kept the heat on 
Bosnia and other countries in the Balkans to actually do 
something. The OSCE made sure that terms such as ``national 
action plan'' or ``national referral mechanism'' wasn't just an 
international buzzword but instead something that triggered 
international and lasting change.
    I mentioned some trends and I will try to very briefly 
touch on two of them because the heightened understanding of 
the problem that we've seen that's reflected in this report is 
something that I think we've seen in the U.S. but we're 
starting to hear this from our international partners as well.
    And one of those trends is the feminization of labor 
trafficking. Labor trafficking for many years, either because 
we weren't really looking at it or we weren't seeing what was 
in front of us or because of various political winds, was once 
thought of as the male counterpart to sex trafficking of women.
    Labor was for men; sex trafficking was for women. You dealt 
with them separately and that was how things got done in a lot 
of places. But like their brothers, husbands and sons, women 
are trapped in fields, farms, factories, mines, homes and often 
suffer the dual demons of both forced labor and rape.
    False promises. This is something that we've seen for men 
in labor trafficking. The stereotype is the man who is lured 
through a false promise of a good job only to have a huge 
recruiting fee or to have to pay off a smuggling fee. Well, 
we've seen that as well as we looked at this status in the 
field--as we look at what's going on out in the enforcement 
community--we've seen that as well with women.
    And so we're hoping that that new fraud in foreign labor 
recruiting crime that was part of the 2008 reauthorization will 
not only be used successfully in the case that's going to trial 
in Kansas City this fall, but also will become a model that we 
can take to the outside world--because that issue of fraud in 
foreign recruiting, what those coyotes are telling people, what 
those folks in the other countries, should be a crime no matter 
where the person ends up enslaved. And if we have to reach out 
to South Asia or if we have to reach out to Latin America to 
apprehend the people who give those lies and commit that fraud, 
then we will do so.
    I also want to point out--and I think that this is 
something that hopefully will be addressed in some of the other 
testimony--the idea that some of the worst abuses occurs behind 
closed doors in involuntary domestic servitude. In some ways, 
these are the most vulnerable victims because unlike people in 
other sectors, they often do not come in contact with anyone 
who might take pity on them, who might help them out, who may 
get them to law enforcement.
    We've seen cases of victims in domestic servitude here in 
the United States, within 10 miles of where we said, who have 
been held captive for 20 or more years wasting away, resigned 
to the idea that they will die in that home, that no one will 
come to find them.
    I was pleased to be able to participate in the recent 
gathering in Vienna hosted by Judge Giammarinaro that brought 
experts together to confront this heinous practice. And I'm 
glad that last month, the United States delegation to the ILO 
was able to get strong language included in the negotiations 
over the domestic servant convention that will hopefully come 
into force next year.
    Going forward, the Obama administration is wholly committed 
to combating every type of trafficking, whether sex 
trafficking, forced labor, at home or abroad, no matter the 
citizenship or immigration status of the victims. And we do 
that in continuation of the spirit of partnership and the work 
of our predecessors.
    I personally, I think, have a reputation for being fairly 
impatient. And I think that we should be impatient because we 
owe it to the survivors, the brave survivors who testify 
against their traffickers, to the NGOs who often put themselves 
in harm's way to serve these victims, to the agents that go out 
and dismantle these cases.
    But we also have to be impatient because of the specter of 
those countless people who are currently still in bondage, 
waiting and wondering, not even knowing whether or not we're 
looking for them. I think we can all be impatient. As Sen. 
Cardin said, we can all do better. I thank you for your 
support. I apologize for the length of this opening statement, 
but it's an important thing that I share your passion on. Thank 
you so much.
    Mr. Smith. Ambassador CdeBaca, thank you very much for your 
testimony and for your leadership. And you could have taken 
more time if you'd liked. Dr. Giammarinaro.

     MARIA GRAZIA GIAMMARINARO, SPECIAL REPRESENTATIVE AND 
    COORDINATOR FOR COMBATING TRAFFICKING IN HUMAN BEINGS, 
      ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    Dr. Giammarinaro. Thank you very much. I am honored to 
testify today before the Helsinki Commission. And I would like 
to thank you for your kind invitation, but also for holding 
this important hearing and for your dedication to this 
challenging issue. This session is mostly dedicated to the 
Trafficking in Persons Report and, first of all, I would like 
to say that in the daily work of my office, the TIP Report 
constitutes an extremely valuable source of up-to-date 
information.
    We welcome the inclusion of the U.S. as a country of 
assessment. And for the first time, we have an overview of what 
is going on in one of the largest destination countries and one 
of the most active in the fight against trafficking.
    I also appreciate the attention the 2010 report pays to 
important issues such as labor trafficking, protection of 
victims' rights and implications of migration policies, as well 
as to preventive actions, such as those addressing loopholes in 
labor recruitment, transparency and worker protection 
throughout the supply chain. And I'm pleased to see that our 
policy approaches are in line with one another.
    Since 2000, the OSCE has adopted, as you know, important 
political commitments to continually strengthen our efforts to 
combat trafficking in human beings. And in 2003, the special 
representative was established as a high-level mechanism to 
promote the implementation of OSCE commitments in the 
participating states. And I'm honored to carry out this task 
now and I'm personally committed to make trafficking in human 
beings even more strategic in the OSCE commitments in the 
future.
    I would like to touch upon two issues: my assessment of the 
state of play of the anti-trafficking struggle in the OSCE area 
and, secondly, the challenges we face.
    What is the state of play? It is undeniable that many 
efforts have been made by governments during the last 10 years. 
There is stronger political will to prevent and combat 
trafficking and this is reflected in the works--more and more, 
the works of the U.S., of the OSCE Parliamentary Assembly and 
the works of the permanent council. Not only this; necessary 
institutional machinery has been set up almost everywhere. And 
this means coordination mechanisms. This means monitoring 
mechanisms and national action plan, in addition to 
legislation.
    However, not always these actions, the concrete actions are 
consistent with declarations, especially in terms of resources 
allocated, capacities developed and actual implementation of 
the action defined in the action plans. Despite the progress, 
we cannot be satisfied. I tend to belong to the same category 
of important people as Luis CdeBaca. And as special 
representative, I think it is my duty to promote further 
improvement.
    And of course, the starting point is to be clear and open 
about what is not still going on very well, what we have to 
improve. Concerning the protection of victims' rights--and I 
start from this important issue because we know very well that 
victims bear incredible human suffering as a consequence of 
trafficking in human beings. Trafficking for sexual 
exploitation, of course, severely undermines and devastates the 
freedom, dignity and health of victims, mostly women and girls.
    But also, trafficking for labor exploitation--and this is 
less obvious--very often causes equal levels of human suffering 
as a result of inhuman working conditions and living 
conditions, humiliation and starvation. Children are subject to 
these and other forms of exploitation and bear scars as a 
result of being deprived of education, health care and basic 
human nurture and protection.
    And I think that, concerning the health consequences--very 
often what we see in courtrooms and in shelters, victims of 
trafficking, both adults and children, often share a similar 
profile to victims of torture. And this is the reason why the 
protection of victims' rights remains paramount in the 
antitrafficking struggle, as Luis CdeBaca said.
    And Joe has advocated for a human-rights-based approach, 
which has been reaffirmed by the OSCE political anti-
trafficking commitments since 2000. This approach has 
subsequently been endorsed by the Council of Europe and, more 
recently, by the European Commission and the CIS Model Law. 
However, the rate of victim identification is extremely low 
compared to the estimated scale of trafficking. It's still very 
low.
    Too often, trafficked persons are either not identified as 
victims of crime or are misidentified as regular migrants and 
deported. Despite the increasing trend of reported cases, the 
criminal-justice response is still largely inadequate. And not 
only in terms of the number of convictions: Often, prosecution 
only reaches individual, final exploiters.
    And in the meantime, trafficking proves mostly a business 
of organized crime and mostly run by flexible criminal groups 
which are connected at the international level. Corruption, 
reinvestment and money laundering remain largely undetected. It 
is, therefore, imperative to handle every single case with the 
aim of dismantling the entire transnational criminal network 
and hit the proceeds of crime.
    We have to admit that, although commitment and action have 
been taken, trafficking in human beings is not still 
considered--and this is my assessment--not very optimistic. It 
is not still considered a strategic issue and does not raise 
the same level of concern as other human rights issues such as 
torture or other transnational treats, such as drug 
trafficking.
    I'm convinced that in my capacity I have to promote a 
different perception of trafficking in human beings. 
Trafficking should not be considered as a marginal phenomenon 
concerning only sexual exploitation or involving the profile of 
certain victims only. This is still the current perception, the 
common perception of trafficking.
    On the contrary, trafficking for any illicit purpose is a 
massive phenomenon of modern-day slavery, an organized crime 
business and therefore a threat for national and international 
security. It is imperative that anti-trafficking legislation 
and policy established over the past years now work on a much 
larger scale, especially in the field of labor exploitation. I 
think this is the real challenge we have to face. We have the 
tooth, but we have to use that in a more effective way.
    My office concerning labor exploitation is dedicated to 
facilitate deeper knowledge of this side of trafficking in 
human beings. We have conducted work on trafficking in the 
agricultural sector and, more recently, trafficking for the 
purpose of domestic servitude. And I'm really delighted that 
domestic servitude was addressed by the TIP report of 2010 as a 
crucial issue.
    Before concluding, I would now like to touch upon three 
crucial areas where, in my view, substantial improvement is 
needed. And these areas concern, of course, the three P's: 
protection of victims' rights, prosecution and prevention. 
Protection of victims' rights: Over the last decade, the OSCE 
approach to promoting human-rights-based responses to 
trafficking through the national-level mechanisms has received 
increased recognition. Such mechanisms, however, have not been 
universally established or have not proven really effective.
    I therefore strongly advocate for early identification of 
and unconditional assistance to trafficked persons. In other 
words, a victim must receive immediate assistance and support 
as soon as there is the slightest indication that she or he 
might have been subject to trafficking. This approach has 
recently been confirmed by the European Court of Human Rights.
    In the recent case of Rantsev vs. Cyprus and Russia, the 
court established an obligation to protect not only victims, 
but also persons that might have been trafficked or are at risk 
of being trafficked. And this means that we have to lower the 
threshold of identification and granting of resident status. 
Without that, assistance is not even possible.
    Another challenging area is the protection of victims' 
rights in criminal proceedings. Victims should receive free 
legal counseling and representation in criminal, civil and 
labor proceedings to be able to claim their rights. In 
particular, the right to compensation is a crucial element of 
an empowerment strategy enabling trafficked persons to gain 
ownership of their lives and their destinies.
    The second challenge is prosecution. A priority is to deal 
effectively with trafficking as organized crime by enhancing 
national capacity and international cooperation in 
transnational cases. And my office is really committed in 
capacity--in working with governments, especially concerning 
capacity-building and training for law enforcement, prosecutors 
and judges.
    Furthermore, trafficking cases, especially for labor 
exploitation, are rarely qualified as such. Prosecutors and 
courts often apply related minor offenses, such as the 
withholding of wages or harboring of aliens. A real challenge 
for law enforcement, prosecutors and judges is to understand 
that a person, although she or he has not been locked up in an 
apartment or in a workplace, could nevertheless be coerced to 
stay in an exploitative situation because she or he has no real 
and acceptable alternative.
    Finally, the third challenge is preventing. And I would 
like to touch here only on one aspect, namely, awareness-
raising. Trafficking is modern-day slavery and it is a 
widespread phenomenon. Awareness-raising should therefore aim 
to build something similar to an antislavery, abolitionist 
movement in which intellectuals, parliamentarians, artists, 
educators and students, private sector, the media and members 
of the general public should feel committed. And I thank you 
for your attention.
    Mr. Smith. Thank you, Dr. Giammarinaro. Thank you very much 
for your testimony, for your leadership within the OSCE. Let me 
just ask, first: Kazakhstan, obviously, is the chair-in-office 
this year. I was one of those in the minority view, as it 
turned out, who felt they should not get the chair-in-office 
until they had attained at least a minimal respect for human 
rights, including trafficking.
    They have been downgraded, as Luis CdeBaca will tell you, 
this year, to a watch-list status because there has been 
deterioration. And I'm wondering, you know, what your contacts 
have been with Kazakhstan.
    I mean, if you're chair-in-office, you should be setting 
the standard. You're up there, you know, in neon lights, saying 
we're the leader. When it comes to human rights, they have been 
clear laggards, but sadly, actually getting worse in the 
trafficking area. So what's your sense on Kazakhstan?
    Dr. Giammarinaro. The chairmanship-in-office, the Kazakh 
chairmanship, has identified child trafficking as a priority, 
so we feel committed to work with them because of course, it is 
important to keep trafficking high in the agenda.
    And this means that Kazakhstan is ready to work with us to 
improve the situation, the internal situation.
    Actually, we are now carrying out a country assessment in 
Kazakhstan and a visit--I will pay a visit in the fall to have 
direct contact with the authorities because of course, our 
country assessment is part of the work we carry out, together 
with governments, to promote the implementation of the 
commitments. So it is important that Kazakhstan, you know, 
accepted to submit the data, the figures and all the 
information available to carry out this country assessment. So 
we look forward to work with them to promote further 
improvement.
    Mr. Smith. Ambassador CdeBaca, your sense on Kazakhstan, 
why they were demoted?
    Mr. CdeBaca. Well, I think it's important to applaud and 
encourage the kind of work that Kazakhstan has been doing at 
the OSCE, while at the same time making sure that we work with 
the Kazakhs as to what they're doing back home. This is not 
unusual, to have a country that may have leadership, say, for 
instance, in the U.N. system or the OSCE system, through their 
ministry of foreign affairs.
    But then you have to look at what the home ministry, the 
interior, the police, et cetera are doing. You know, one of our 
big concerns on Kazakhstan is the need for victim protection 
and identification. And we do think that the visit of the 
special representative is going to have a salutary effect on 
that.
    I think at the end of the day, Kazakhstan is a destination 
country, as well as a source country. And yet you only have 
three foreign victims identified last year, only 12 Kazakh 
victims of forced labor. And one of the big things that's a 
problem in Kazakhstan is not simply the cotton harvest--which, 
I think, a lot of people have paid attention to in all of the 
Central Asian republics--but even, you know, forest work and 
other things like that.
    So I think that's, at the end of the day, sharpening their 
victim identification--there are a lot more sex-trafficking 
victims out there than the three foreign victims that they were 
able to identify. And we hope that with the work in the OSCE, 
that they'll--much like we saw with the Balkans--that the 
Central Asian republics will start that upward trend.
    Mr. Smith. Let me just ask Dr. Giammarinaro again a couple 
of questions to you. In our TIP Report, Holland is a tier-one 
country. And I, for the last 14-or-so years, have had an 
ongoing disagreement with the Dutch especially as to the number 
of women who are, I believe, trafficked into Amsterdam.
    Two-part question: One, your sense of the number of women 
who are sold like commodities in Amsterdam, although there've 
been some changes, I know, in their policies. Many of them are 
foreign women. And their own rapporteur some years back 
suggested that there were elements of coercion--with regards to 
force, fraud and coercion--with their presence there.
    I go to many countries around the world and go to shelters 
and meet with their parliamentarians and their executive branch 
on trafficking. I was in Brasilia, I guess it was four years 
ago. I spent a week there talking about these kinds of issues. 
I made a trip one day into Rio de Janeiro and, of all things, 
it turned out that there was a woman who was rescued--a 
Brazilian woman--who was there, who was on her way to 
Amsterdam.
    And in a like manner, I was in Lagos a couple of years ago, 
and Abuja, but in Lagos, I went to a trafficking shelter and 
met with a number of trafficking victims who had been rescued, 
both from African countries, but also from Italy. And in Rome, 
I went to a series of shelters there and met a number of 
Nigerian women.
    And I guess the question would be, with regards to your 
mandate, you know, obviously the OSCE region is not 
hermetically sealed. There are people coming in and out from 
all over the world. How much do you expend effort, or do you 
think your vision should be, to talk to countries like Nigeria, 
or talk to the Brazilians or others, which are supplying--
again, I hate the sense of the commodity called a woman--to 
their sex exploitation? Do you have those kinds of 
conversations?
    Dr. Giammarinaro. At the moment, my first commitment is to 
deal with OSCE area, which is an area in which the floods of 
trafficking are enormous. And of course, we have to deal also 
with relatively new phenomena such as internal trafficking, 
which has been underestimated everywhere.
    And now we have reports from, for example, in Germany, in 
the U.K., in the Netherlands, in Belgium, cases of internal 
trafficking for sexual exploitation are more and more reported. 
Internal trafficking for labor exploitation exists in many 
countries of the OSCE area and, in particular, in Central Asia.
    Of course, a further, you know, development of our activity 
could be to have an improved and enhanced dialogue with 
countries of origin of floods of trafficking coming to the OSCE 
area. And of course, some countries are particularly important 
because Nigeria is a source country for sexual exploitation of 
victims that are trafficked everywhere in the OSCE area. So I 
look forward to this further development.
    Mr. Smith. I appreciate that. And let me ask you, with 
regards to the police--Holly Burkhalter will be speaking in the 
second panel and she works with the International Justice 
Mission. And we were writing the first law and established the 
minimum standards by which a country is judged--including our 
own--tier one, tier two, tier three and now watch-list as well.
    He was emphatic in testimony, as well as when we were in 
drafting sessions, that you've got to include the police. 
You've got to keep that focus on the police. If there's an 
Achilles heel, it's not necessarily a lawmaker or somebody in 
the foreign ministry, although they can be weak links and 
enablers. It is usually in the police.
    And I'm wondering if you find in your work, as well as with 
the work with the Strategic Police Matters Unit. Do you focus 
on the fact that the police--you know, they're the ones who can 
be bought off? They're the ones on the scene. I remember Gary 
Haugen from International Justice Mission--a tape and he showed 
these little girls--it was India--but he showed how the police 
had just enabled the whole thing. They're on the watch for the 
pimps and the traffickers.
    And one anecdotal that our commission dealt with a few 
years ago: We got actionable information from Montenegro that, 
at a brothel, there were six Ukrainian women. And the NGO that 
called us said, please, don't send in the local police. They're 
part of the problem. So we called the President of Montenegro. 
He sent in his special police. They rescued all but one, who 
was unfortunately trafficked to another place.
    But it underscored for me, forever, that if you don't get 
the police right, you don't get any of it right. And I'm 
wondering what your sense on the police is.
    Dr. Giammarinaro. Yeah, absolutely. I can forward the data, 
if you like, but I can say that we pay a lot of attention to 
the training for the police. And there are activities going on 
in many countries of the OSCE area.
    Together with the specialized unit for the police and the 
secretariat, we are carrying out different training, various 
training in different countries. And also, the field operations 
have projects, which focus, again, on capacity-building and, in 
particular, the training for law enforcement.
    And this is because identification of victims very much 
depends on the skill of local police, of the normal police 
officer, which in every unit should be able to identify 
indicators of trafficking. And this is, you know, the main 
goal. Of course, this takes time because we have started with 
the high-level officials and now, the next challenge is to 
reach in a more general way the front-line law enforcement.
    But absolutely, this is a priority. And we are trying now 
to involve more prosecutors' offices because law enforcement is 
largely on board. Prosecutors have not been so active in the 
field of trafficking human beings and it is true that there is 
still a big problem of interpretation and implementation of 
criminal law.
    Because as I said, one of the problems is that prosecutors 
and the courts try to find evidence of coercion. And they 
should simply understand that coercion could be exercised by 
subtle means; for example, by means of abuse of a position of 
vulnerability. And this concept needs to be more, understood. 
And therefore, the criminal law should be implemented in a more 
wide and correct way.
    Mr. Smith. Let me just conclude with--and I know we'll be 
meeting later and I'd like to take this up with you further--
but if you could consider at least looking at this Megan's Law 
concept, which I know the U.K. has. We have it.
    It's not perfect, but it goes to the demand side. It goes 
to the secrecy of individuals who have already shown 
themselves. They've been convinced of this terrible crime and 
they recommit these crimes again. So for the sake of children 
and vulnerable persons, the Megan's Law, at least, is a good 
crime-watch tool. And most European countries don't have it and 
it seems to me they should.
    The second would be on the issue of the military: In 2002, 
President Bush issued a zero-tolerance policy. We worked very 
closely with them on that. But as we saw with the U.N., when 
they did likewise, I actually had a hearing in which several of 
our witnesses said zero compliance. It is an open question 
whether or not militaries are training, making their recruits 
and everybody up the line of command knowledgeable about what 
is happening here.
    And we just had another problem, as Luis CdeBaca knows, 
where we thought we had the issue in South Korea under more 
control that these so-called juicy bars, as they call them, 
seem to be a conduit for selling women, especially Filipino 
women. So the military is always a problem.
    The real laggard, in my opinion, in the OSCE is Russia. 
They've always been a problem with regards to their military. 
They have been reluctant at OSCE conferences to talk about, you 
know, buy-in with best practices for that kind of exploitation. 
Maybe you might want to speak with the Russian--whether or not 
their military's doing anything to try to combat human 
trafficking.
    And I'll never forget, I visited a trafficking shelter in 
Sarajevo. A nice shelter, good shelter, but when I mentioned 
any kind of faith-based component--either a visiting clergy, a 
Muslim imam or a priest or anyone--it was like a foreign 
concept. I mean, they weren't really against it. They had never 
even thought about it.
    Your predecessor and I had many arguments about the 
importance of faith-based shelters. And I've been in shelters 
all over the world. I do think those that aren't faith-based do 
a wonderful job, but those that are faith-based also meet a 
deep wound, especially in a woman, that might be helped with a 
spiritual component.
    At least it ought to be included and not excluded, which, 
again--your predecessor was adamant. We had arguments many 
times with regards to that. And I'm wondering what your feeling 
is on faith-based shelter.
    Dr. Giammarinaro. Concerning the demand, the demand side 
should be absolutely addressed, both for the demand of sexual 
services and the demand of cheap labor because these are 
drivers of trafficking. How?
    I'm very much convinced that one thing is education and 
culture. I think that if we want to really address prevention 
in the long term--prevention of trafficking--we have to promote 
a culture of equality and respect for relationship between the 
sexes because this is the real problem behind.
    Concerning further action, I think that the suggestion--it 
is not a binding provision, but it is included in the Council 
of Europe convention on trafficking in human beings, concerning 
the criminalization of users that knowingly use services 
accepted from a trafficking person, can be a useful tool to 
address the demand. Of course, one aspect that should be 
addressed, more and more address, is the demand of cheap labor 
because this is also one thing that we should look better into.
    Concerning the military, the code of conduct of the 
military, we have just started to develop, to think about that. 
We have commissioned a study because we want to understand what 
actually happens on a daily basis and if the zero tolerance and 
the code of conduct are really effective. It is, of course, 
something that is absolutely crucial and it is on our agenda, 
so we will take action in this field.
    Concerning the shelter, frankly speaking, I'm a bit 
hesitant concerning the idea of a faith-based shelter. 
Personally speaking, I have a high appreciation of some faith-
based organization, including the Italian Catholic nuns with 
whom I have worked a lot. And they do a fantastic job, for 
example, in Nigeria because as you know, Italy is one of the 
countries of destination of Nigerian girls.
    In my view, it is clear that every shelter, whatever it is, 
be it a government shelter or a shelter run by an NGO the 
rights of victims should be respected. Their freedom of 
religion should be respected. And they should be offered all 
the services concerning the possibility, the actual 
possibility, of practice of their faith or their religion.
    So I think that we should pay attention to this problem 
because it is one aspect of victims' rights. So I think that 
from this point of view, I would certainly, you know, pay more 
attention than in the past to this aspect.
    Mr. Issa. Doctor, I'd like to follow up on that by 
rephrasing the question. Do you support that if there are 
multiple NGOs offering shelter, that faith-based, or NGOs who 
are faith-based is maybe a better way to put it, should be 
included in the opportunity--or another way of putting it, not 
excluded from consideration. This is something we deal with 
even in the United States, which is, in many cases we have 
faith-based organizations who are not fighting to proselytize.
    They're simply fighting not to be excluded from being 
equally eligible to, if you will totally secular organizations. 
In our case, Catholic Charities simply wants to have the same 
opportunity to offer homeless people shelters. They're not 
trying to convert, but they do want to be included.
    So in that way--because you did seem to give Mr. Smith a 
little bit of the same answer that your predecessor did, 
perhaps more diplomatically. I just wanted to know, do you 
support that they not be excluded simply because they come from 
a faith-based background?
    Dr. Giammarinaro. Definitely, yes. I think that no 
organization should be excluded or discriminated on the basis 
of their cultural identity. So definitely, I think that faith-
based organizations should not be excluded or discriminated. 
But I think that they have to ensure the same level of respect 
of victims' rights.
    In other words, what is the reason why I don't like the 
expression faith-based shelter? Because this suggests the idea 
that all the people that are in the shelter should be selected 
or subjected to a certain cultural or religious approach. If 
every organization ensures to victims the same level of respect 
of their rights, I think that this is, you know, the basic 
requirement for admission to funding. And of course, we 
couldn't tolerate any discrimination from this point of view.
    Mr. Issa. Thank you. The problem of, for example, Mr. Smith 
mentioned Kazakhstan. And I noted that when you look at 
Kazakhstan and you look at Russia, they look very similar. And 
as you go through each of the former Soviet satellites and 
assets, they all look very similar.
    Would you say that we're dealing with a culture in which 
you're really not dealing--even though you're dealing with 
individual countries and trying to get them to break away--
you're dealing with, to a great extent, post-Soviet Russian 
influence in the region?
    Dr. Giammarinaro. The legacy, of course, is there. It is 
undeniable that there are commonalities. But there are also big 
differences. And actually, according to my mandate, I have to 
work with every government and try to achieve the best results 
I can in a cooperative setting.
    Mr. Issa. And the reason I was asking is, if we don't 
succeed with Russia--and we have not succeeded with Russia--
isn't it, in a sense, a ripple effect, that by not getting 
Russia to improve--and I've been to most of the 'stans. Most of 
them, along with most of the other countries, have deliberately 
implanted huge amounts of Russians during the Soviet period who 
are, in many cases--in some cases, ostracized, but in some 
cases, very much still in control.
    Isn't the linchpin to this whole thing getting Russia to 
make a material change so that the culture that they created, 
particularly as to prostitution, can be, over time, justified 
for a change? And conversely, if you don't change Russia, don't 
you, in a sense, have to peel off each of these with a much 
greater effort?
    Dr. Giammarinaro. If we don't succeed, we will think about 
that.
    Mr. Issa. Ambassador? I saw your head shaking, so I'm 
guessing that the Russia-centric is part of your radar.
    Mr. CdeBaca. On several levels. I think that, first of all, 
just as we have to deal with the Commonwealth countries in a 
particular way because of a shared understanding of how much a 
judge can do, as opposed to the prosecutor or the legislator, 
in the British legal system, the post-Soviet legal system and 
updating that, I think, has had some very particular impacts in 
the antitrafficking fight.
    A few countries have tried to take steps to consider what 
we'd consider a more European or a more American-style 
antitrafficking law. But it's the context of a Russian legal 
tradition.
    Mr. Issa. Russia's gift included this curse.
    Mr. CdeBaca. Well, the gift of the legal tradition, one of 
the things that it did is it kind of stamps out entrepreneurial 
behavior on the part of what we would look to as the leaders in 
the fight. Typically, it's your up-and-coming police colonels 
or your up-and-coming folks in a ministry somewhere.
    And yet, especially in the policing and the prosecutor's 
office, if they don't have the authorizing legislation first to 
allow them to go out and act upon the penal code, then it's 
illegal for them to do so.
    And they also don't have discretion. They have to charge 
the crimes that are in front of them. And so you don't have a 
situation like here in the United States, where a prosecutor 
can use their discretion to not charge the victims with a 
prostitution offense, knowing that they were enslaved by their 
pimp. In a lot of the former Soviet states, that's one of our 
first hurdles, is to try to teach prosecutorial discretion.
    So I think that there's a lot of remnants. Certainly, we 
also see in all of the 'stans, the cotton harvest--which is, 
again, one of the big problems there as far as labor 
trafficking--is because of how the Russians, when they were in 
control, would staff the cotton harvest, taking all the kids 
out and sending them into the fields.
    Mr. Issa. Let me follow up on that. In many cases, in my 
understanding, in all of those regions the people who are doing 
that--the children who are doing that--it's actually not 
illegal for them to do it. Isn't that true? We face the problem 
that unlike forced prostitution, denial of human rights, 
kidnapping--all the things that are either implied or literally 
occurring in most human trafficking--child labor is a concept 
that we have here at one level. And in India, it's a very 
different level, isn't it?
    Mr. CdeBaca. To some degree. I think that there's a 
gradation. Child labor, you know, has many different facets. I 
think that even those who work almost wholly within that 
paradigm, the child labor paradigm, under the ILO conventions, 
will admit that at the end of the spectrum is the prohibition 
against enslavement. In the trafficking office, we tend to put 
all of our time and effort into that portion.
    Mr. Issa. Right, but in this report, it appears as though 
you don't differentiate as to whether the use of child labor up 
to 17.
    So is one of the shortcomings in the TIP Report, perhaps, 
which we can't say in every case, you know, that 900 people 
were taken out of school between seven and 17 in violation of 
their law? I didn't find that as I scanned through a number of 
those. And it concerned me only that if it's in their violation 
of their law, then they have made the effort to say, our 
standard is X. And then they certainly should be judged 
harshly. But it didn't appear to be there. Is it there, but 
just not written?
    Mr. CdeBaca. It's there but not written. And I think that's 
something that we can look at. There have been--some of the 
teachers and some of the school administrators have been 
punished in various of the 'stans for doing this. So it is 
punishable. It is just not usually punished. So it does violate 
their law. They're not supposed to be doing it. And we take 
great pains to try to differentiate the kids that are sent to 
the fields without threats versus the ones who are----
    Mr. Issa. Yeah, and I realize you have a limited amount of 
words that you can put into each of these, but that would be 
helpful. Let me ask you just two more questions that are more 
about initiatives. What efforts, particularly for the State 
Department, can we bring to bear for harmonization?
    It appears as though, as I look through the TIP Report--but 
just in general, as I've traveled throughout the years on 
foreign affairs and so on--the first thing we have to do is 
define things in a way in which a violation of our law and a 
violation of their law become both the same violation.
    I remember when we were dealing, early on in my life here, 
with Thailand and creating a situation in which we could charge 
somebody who got an airplane ticket to go have sex with a child 
in Thailand and we could charge them here in the United States. 
And that wasn't that hard, except that it was alien to our 
historic.
    And so we created it. But my understanding is a great many 
countries have not signed on to that. So how can we make that 
protocol to where anyone who gets on an airplane for sex 
tourism is equally in violation and the like?
    Mr. CdeBaca. I think there's a couple of things, both as 
far as the substantive law--the Palermo Protocol gives us a 
good hook for that. The minimum standards pushed countries 
toward it. One of the things that we often get from tier-three 
and tier-two watch-list countries is, you know, that they 
passed a law that they thought would comply with Palermo in, 
maybe, '03, but they just took the Palermo language and just 
slapped a penalty on it.
    I was a prosecutor for a long time and that's not really 
how you do it. Our criminal laws, in the federal system, are 
actually thought out as to what the prosecutor needs to prove 
in front of the jury and in front of the judge.
    Mr. Issa. And sometimes what the judge's jury instructions 
must be.
    Mr. CdeBaca. Exactly. And the jury instructions are 
certainly a challenge, but we have the common law that fleshes 
that out. So it's knowable; it's provable in court. The Palermo 
Protocol was not negotiated for that purpose. So a lot of 
countries are not coming back to us because they've seen the 
number of cases that the U.S. has done.
    We've done more cases than any other country in the last 10 
years, under these involuntary-servitude statutes, as updated 
by the TVPA. And so countries that are doing countries under 
other laws that don't really match, they look at that and they 
say, well, how can we get a law for that? So we're working with 
those countries to get the substance.
    As far as some of the procedural issues, especially 
extraterritorial jurisdiction, this is something that we're 
certainly raising. We're getting more traction, frankly, with, 
again, the common-law countries, but we also get some traction 
with a number of the other source countries. So it's a 
discussion that we have with Germany, with Switzerland, et 
cetera. We're starting to see more and more countries step up 
and punish their folks when they commit crimes in other 
countries.
    I think it really is the wave of the future when it comes 
to slavery and involuntary servitude because the trafficking--
especially after this European Court of Human Rights decision 
in the case against Russia and Cyprus--it really shows that 
this is a responsibility of the state, to protect trafficking 
victims. And I think that that responsibility goes with your 
nations, no matter where they are.
    Mr. Issa. Doctor, in the United States we often talk, do we 
have a nexus? Do we have a hook that gives us jurisdiction? The 
federal government talks about it. The states talk about it. 
When there's an interstate activity, often the challenge is 
that part of the crime is in one state, but it's not a crime 
fully and another part's in another state. So we have a federal 
umbrella.
    However, when it comes to things like the Holocaust, we 
made a global decision that crimes against humanity would be 
triable virtually in any country on earth, that no country 
would lack the ability to try, nor would there be, in most 
cases, an absence of extradition capability. We don't seem to 
have it in human trafficking. Is there a path you can see, 
particularly with the European Union and the new entrants and 
the wannabe new entrants, like Turkey and so on?
    Do you see the opportunity to create a global or a near-
global alliance, where any person who is in any way involved in 
human trafficking--even if it's not fully a crime, but over 
multiple countries would be a crime--would create enough nexus 
for any signatory to be able to attempt to prosecute or to 
extradite, as we would with crimes against humanity?
    Do you see that as something that we should be looking at 
in the long run, so that no one could run; no one could hide? 
The norms of a country, if you ignore a crime, wouldn't change 
the fact that evidence gathered could then be ultimately used, 
if that person or anybody involved left that country and went 
to a third country more sympathetic or more willing to 
prosecute?
    Dr. Giammarinaro. I'm absolutely in favor of the 
enlargement of the extraterritorial jurisdiction. I don't know 
if it's feasible, the idea of a universal jurisdiction, but I 
can say that I will continue to advocate at least for an 
enlargement of the extraterritorial jurisdiction in cases in 
which the crime is committed abroad, by a national or an 
habitual resident, or the victim is a national.
    Because my idea--and I have been--and until three months 
ago, I was seconded to the European Commission and I drafted 
the new proposal of the European Commission, where this 
principle is reflected and I issued an opinion. The European 
parliament is even more onboard on this idea of enlarging the 
extraterritorial jurisdiction.
    But just to say that something is moving on, on this field, 
it is true that there is a reaction from governments, of 
course. For good and bad reasons they resist to the idea of an 
enlargement of extraterritorial jurisdiction.
    But in the case of trafficking, I think it is absolutely 
necessary because we have to face, for example, the phenomenon 
of criminal groups that move from a country to another country 
and commit horrible crimes. And these groups, for example, have 
established the center of their criminal interests in a country 
which is not the country of nationality. And this country where 
the most important part of the criminal activities takes part 
because the organization is there should take responsibility 
for prosecuting these people even when they commit the crime of 
trafficking abroad.
    So for trafficking, there is even specific reason why 
extraterritorial jurisdiction should be enlarged. I try all the 
time to support that trafficking is one of the most serious 
crimes in the international arena. It's a crime against 
humanity in the International Criminal Court statutes. This 
deserves universal jurisdiction. We could start to advocate 
this. Of course, we know that this will be a long, long wait.
    Mr. Issa. Well, I'm going to close by just saying because 
of my primary ongoing conversations with the European Union and 
its members, I, for one, would think that if we cannot have, if 
you will, a Geneva Convention-equivalent, as it is on war 
crimes, if we can't have that between members of the European 
Union and the North American alliance--at least Canada and the 
U.S.--then you're right, we won't achieve it.
    But it would seem almost impossible that we wouldn't be 
able to get a trans-Atlantic agreement that would at least 
allow for the concept of you-try-or-you-deport, and that the 
extradition improvement, or greater ability to extradite, would 
be a great impetus for prosecutors including here to say, oh 
no, it's too much trouble to do that, and there are all these 
questions.
    So before the State Department endlessly gets into it, the 
answer is, well, you have the ability to prosecute. If you 
prosecute, the State Department is out of it; if you fail to 
prosecute, then extradition could be inevitability.
    And my goal would be at least to have a dialogue and 
hopefully that can be taken back to the secretary that it seems 
like we could start it between the U.S. and the European Union 
and then take it and expand it to countries who are not as 
likely to be tier one.
    Mr. CdeBaca. Mr. Issa, if I may.
    Mr. Issa. Yes, Ambassador. Are you saying the 
administration listens?
    Mr. CdeBaca. Well, we'll see. I think--not having looked at 
this in that depth, but I will when I get back and we will 
raise this as far as the dialogue--it's very interesting 
because the two primary founding principles of international 
law were slavery and piracy. And the United States and Britain 
with the 1808 Slave Trade Act actually declared that we had--
and Britain declared that they had--extraterritorial 
jurisdiction to prosecute those who they caught moving slaves 
across the Atlantic.
    And we see that in Somalia with the pirates right now. We 
see that, potentially that's something that we could look at as 
far as the trafficking situation.
    Mr. Smith. Let me just conclude with a couple of very quick 
questions. First, we're trying here in the United States to 
energize the corporate world with both carrots and sticks. In 
2003 with our first reauthorization of the Trafficking Victims 
Protection Act, we put in provisions that would hold to account 
those companies that get U.S. contracts, whether it be a DOD, 
State Department or any other, that they have to certify that 
they are not enabling or complicit with trafficking.
    And nothing sharpens the mind of a CEO or a CFO knowing 
that they could lose, not only will their employees be held to 
account, but they could lose the money itself, the contract. 
That has worked to some extent.
    And Mark Lagon, Ambassador Luis CdeBaca's predecessor in 
his job as ambassador, is working with LexisNexis and some 
other corporate entities to try to put together an effort on 
human trafficking to get the corporate world fully engaged in 
combating this modern-day scourge. And I'm wondering if you 
have seen any like-minded effort in Europe.
    Dr. Giammarinaro. Actually, what we are trying to do is to 
bring together employers' organizations, trade unions, migrant 
workers' organizations and enlarge the partnership. As special 
representative, I chair the Alliance Against Trafficking in 
Persons, which includes international organizations and the 
most active NGOs.
    And now we are trying to enlarge this partnership and 
include trade unions, employers' organizations and migrant 
workers' organizations because the idea is that the labor 
dimension of trafficking should be addressed also involving the 
private sector and the organizations that are active in the 
field of protection of workers' rights.
    In addition, we have commissioned a study to build a sort 
of code of conduct for employers because the idea is that in 
terms of prevention, we should have as main actors the 
employers in the sense that they should put in place good 
practice and that preventing all the situation in which 
trafficking flourishes. So this is something which is on our 
agenda.
    Mr. Smith. I appreciate that. And one final question with 
regards to involuntary domestic servitude. If you might 
elaborate on the tenth Alliance Against Trafficking conference, 
some of the findings especially as it relates to that.
    And to Ambassador CdeBaca, one of the more obscure parts of 
our original Trafficking Victims Protection Act, title V was 
called, ``The Battered Immigrant Women Act'' and that 
legislation, which doesn't get, I don't think, the kind of 
enforcement that it deserves, is designed to help battered 
women, many of whom would be undocumented or illegal aliens, 
who are fearful to come forward out of the thought of being 
deported. And that's held over their heads, so they endure the 
battering and the exploitation so they won't be deported.
    And this legislation--and I did it--was designed to provide 
the Violence Against Women Act protections over them as well, 
in addition to staying any kind of deportation proceeding. And 
I'm wondering how that's being enforced.
    Dr. Giammarinaro. Concerning the outcome of the conference, 
I could say that one first outcome is the general concept that 
trafficking for domestic servitude flourishes in a situation in 
which a domestic worker is not protected enough in terms of 
regulation or labor law, et cetera. And so we welcome the 
initiative of the ILO for this convention to better protect 
domestic worker in general. And this in terms of prevention.
    Another issue addressed by the conference is intersection 
between trafficking for domestic servitude and migration 
policies in particular concerning the possibility for the 
workers to change their employer because if the worker is 
linked and his visa or her visa is linked to a particular 
employer, this means that this person becomes immediately 
vulnerable to the worst forms of exploitation because she or he 
has no alternative, has to stay with the same player. So this 
is something to be looked better in terms of the regulation of 
migration policy.
    Another challenge is identification. Of course, these 
victims of trafficking are completely isolated. So we have to 
think about regulation that enables these people to have direct 
contact with the authorities which are in charge, for example, 
of the renewal of their visa. The situation now is that all the 
relationship with the authorities are normally mediated by the 
employers themselves that take care of the renewal of the 
documentation, keep the passports, et cetera. So we should try 
to find the way to reduce as much as possible the social 
isolation of these people.
    Finally, the conference addressed the very difficult 
problem of the domestic servitude taking place in diplomats' 
households. And this is, of course, as you know very well, a 
big problem. And in these cases, it is difficult to--it is 
impossible, of course, to prosecute at people that have 
diplomatic immunity unless there is an initiative of the state 
of the nationality of the diplomat.
    In general terms, I think that the most important thing is 
that every government take responsibility for their own 
diplomats but also for what happens in their territory because 
this is a focus, a sort of attention that itself is a form of 
prevention. In addition, we have good practices in some--in a 
few, actually--a few European countries, including Austria and 
Belgium. And these practices consist of specific procedures 
that enable domestic workers to be more autonomous, more 
independent, to have a direct relationship with the authority, 
the immigration authority.
    Of course, it is also to be explored the possibility of 
declaring a persona non grata people that are suspected of 
carrying out domestic servitude in their households. But the 
most important is that governments take responsibility for this 
phenomenon that so far has been completely forgotten.
    Mr. CdeBaca. Before I address your question about the 
battered immigrant women, I would like to slipstream for a 
moment on the references that the special representative has 
put together on the diplomats because one of the things that 
we've done just in the last few months is we have issued formal 
guidelines for the United States diplomats and employees 
working overseas and their chief of mission authority as to how 
they can treat any domestic workers that they have, including 
the fact that they can face removal from employment and federal 
prosecution were they to abuse workers overseas.
    So again, that's one of the places where we're making sure 
that our jurisdiction to prosecute here in the United States 
something that one of our diplomats does in another country is 
clear to everyone. And there was a case several years ago that 
had been done with a returned diplomat in the Northern 
Virginia, in the eastern district of Virginia as well. So it's 
something that we take very seriously not just through our 
diplomacy but in the secretary's role as the head of this 
particular organization.
    As far as the Battered Immigrant Women Act, portions of the 
TBPA, as you mentioned, Mr. Smith, the U visa is a very 
important part of the TBPA. It's not limited to trafficking, 
although there is--the word ``trafficking'' was included in 
there, kind of belts and suspenders. Unfortunately, there is 
much more domestic abuse and other generalized crime against 
women than just trafficking, human trafficking, kind of the 
equivalent, as I think Congress declared in the '96 immigration 
act, human trafficking being the equivalent of kidnapping and 
extortion. So luckily there is not as much of it as there is of 
some of these other crimes.
    The battered immigrant women, much larger numbers and many 
more visas have been issued--over 10,000 in the last 10 years. 
Unfortunately the DHS doesn't disaggregate the U visa as to 
what crime it was issued for and so I can't tell you how many 
of those was domestic violence versus a different type of crime 
that the victim may have suffered.
    One of the things that I think is exciting about this year 
is that the Department of Labor has now issue guidelines to 
their wage and hour investigators as coming into line with the 
EEOC. Our civil partners, those who are not the FBI or INS or 
ICE--our civil partners actually looking to see whether or not 
they should be getting those letters out saying you're entitled 
to a U visa, et cetera. So we think that having DOL at EEOC 
brought online is going to be a very positive step.
    But the other trend is something that is pointed out in 
this year's report and I think that it needs, frankly, needs 
some work. And that is, as more and more state and local law 
enforcement are participating in the 287(g) enforcements under 
the immigration act that allows them to do local enforcement of 
immigration laws, they have very limited training on T and U 
visas.
    The training that they get, it's unclear as to whether 
there has been an impact as far as the state and local cops 
bringing women forward in order to get the U visas. So that's 
something that, again, it's in our recommendations this year. 
DHS was very forthright when we went to them and said, we think 
that we need to put this in the report. And I think that that 
puts us in good stead; we may be coming to talk to you about 
it. Thank you.
    Mr. Cardin. Well, let me thank both of you for your 
testimony. I do have just one question for the special 
representative. And that is, you have indicated in your 
testimony the importance of having the position at a high level 
within the OSCE as the special representative.
    My question is, basically, do you have the adequate 
resources and access within the OSCE to accomplish your mission 
as effectively as you would like to? Are there concerns that we 
should be aware of in the U.S. Helsinki Commission to assist 
you within the OSCE network so that you do get the type of 
access and the type of resources necessary to carry out your 
mission?
    Dr. Giammarinaro. Of course, we have an office. We have 10 
people, very committed and skilled people. So we have a good 
basis to work. And we have a budget which allows us to carry 
out a number of good initiatives. But we are now thinking about 
the fact that we should raise fund to be more active in terms 
of projects because it is true that so far projects have been 
carried out by ODIHR and by the field operations.
    But in order to make the action of the special 
representative office more effective, we need more funds. So of 
course, we have the possibility to ask for extra budgetary 
funds, but this procedure is particularly difficult because for 
every project, we have to call for donors, we have to try to 
interest a number of donors, et cetera.
    We are now thinking about the fact that probably it would 
be much easier and better for us to have a sort of program, a 
sort of fund financing a program, for example, for prevention. 
And according to this mandate concerning the program, we could 
carry out projects without every time raising fund for this 
particular project. A system not different from the ODIHR, 
ODIHR financing of projects concerning trafficking.
    Of course, we don't want to promote any competition with 
ODIHR. Of course, we have different features and these 
resources should be additional resources. But I suggest the 
same structure, the same functioning of this program funding 
because it has proven particularly effective in the case of 
ODIHR. So this is something I would like to advocate with 
participating states to make our action easier and more 
effective.
    Mr. Cardin. The reason I raise the question is that a 
special representative is the special representative of the 
chair, which under the OSCE structure, of course, the chair 
changes every year, which is a healthy thing for OSCE. However, 
the predictability and permanency of our commitment in this 
area goes beyond any one chairmanship or the interest of any 
one chair. And that's why there is the office of ODIHR to make 
it clear that the human rights commitment of OSCE is one that 
has a permanent presence.
    And I think we need to take a look within the structure as 
to whether moving forward there is a need for a more permanent 
type of operation dealing with trafficking. And the budgeting, 
of course, is the key factor. So we will solicit your input as 
we take a look at ways in which we can make it clear that our 
interest here is not just with one chairmanship but is one 
that's institutionalized within the OSCE.
    Dr. Giammarinaro. Yeah, this could be an interesting 
development, especially because the special representative is a 
sui generis structure because it is true that I belong both to 
the secretariat and to the chairmanship. So as coordinator, I 
belong to the secretariat because, of course, I'm the head of 
the office. As a representative, I belong to the chairmanship. 
But in fact, this is not a bad situation because this ensures 
continuity and ensures also a direct contact with delegations, 
which is the added value of being a representative of the 
chairmanship.
    Of course, there is also this bad side, which is linked to 
the fact the chairmanship in office changes every year. But the 
good side is that the special representative work together with 
the governments and I have direct access not only to the 
chairmanship but to all the delegations. And so this makes this 
mandate particularly effective, especially concerning advocacy 
and technical assistance because this implies a close 
relationship.
    Of course, another scenario could be that the special 
representative becomes an institution. But of course, this is a 
different perspective, and I wonder whether it is a good idea 
to have, you know, all the tasks concerning trafficking in one 
single--under one single umbrella.
    Because, after all, the idea that an institution--ODIHR--
with autonomy dealing with human rights can take action maybe 
more freely in the field of human rights is, you know, a good 
way of complementing different angles of the anti-trafficking 
struggle, because we need to work with governments and because 
ultimately, the real results and improvements in anti-
trafficking policy depends on the political will of 
governments. So we need to work with them.
    But we need, also, to speak openly about a certain number 
of issues. This is something to be discussed, to be thought 
about. But for the moment, I think that the feature of the 
special representative is effective. And if we have more 
resources and the possibility to act more, you know, in an 
easier way on our daily basis, I think that our action can be 
effective. At least, we hope so.
    Mr. Cardin. Our commission has had the opportunity to meet 
with the chairs in office, and the subject of trafficking is 
always on the agenda. And quite frankly, as almost always 
brought up by the chair in office, so I think that it has had 
the attention of the chair of office, which is important.
    So I didn't meant to imply, by the question, that there's a 
concern of the current effectiveness of the structure, but as 
you raised budgetary issues, this is something that we want to 
take a look at to make sure that it does continue to have a 
high priority in the OSCE, particularly during tough budget 
years. These are not easy years.
    I know in the parliamentary assembly, we just froze our 
budget, which is going to cause some very difficult judgments 
to be made. Let me, again, thank our two witnesses and 
appreciate the work that you're doing and invite you to work 
very closely with our commission. If there are ways that we can 
help either your efforts, Mr. Ambassador, or your efforts, 
Madame Special Representative, please let us know.
    Dr. Giammarinaro. Thank you.
    Mr. Cardin. We'll move on to the second panel, and I know 
we do have a time restraint in that, I believe, this facility 
is only available to a certain hour. So we will try to move as 
efficiently as we can, understanding the time commitments.
    Jolene Smith is the cofounder and CEO of Free the Slaves, a 
Washington, D.C.-based, nonprofit, nonpartisan organization 
dedicated to eradicating modern slavery around the world. And 
Holly Burkhalter is the vice president for government relations 
of the International Justice Mission, a U.S.-based human rights 
organization that provides legal services in 14 overseas 
offices to victims of human rights violations and works to make 
public justice systems accessible to the poor.
    It's a pleasure to have both of you here. Thank you for 
your patience with the first panel. And we welcome your 
testimony. Your entire statements will be made part of our 
record. And you may proceed as you wish. Ms. Smith?

        JOLENE SMITH, CEO & CO-FOUNDER, FREE THE SLAVES

    Ms. Smith. Thank you, Chairman. Thank you, Congressman 
Smith. It's an honor to be here today in the presence of so 
many who made this report and the reporting process possible 
for the last decade. In our experience as a non-governmental 
organization, we have found that it has truly helped strengthen 
and shape efforts of antislavery work around the world, 
including the efforts of the United States.
    Free the Slaves, as you may know, is a nonprofit, 
nonpartisan organization dedicated to ending slavery worldwide. 
We are engaged in constant, on-the-ground liberation and 
rehabilitation/reintegration of people through partnerships 
that we have with grassroots organizations in seven countries. 
And this is in addition to our efforts in the United States.
    Informed by these local partners and by our overseas staff, 
I would like to highlight one of the major benefits that this 
report, and the reporting process, has brought about, and also 
one example of how we think there might be an enhancement to 
this process. So first, what is working? And that is law 
enforcement emphasis with civil society collaboration and 
partnership.
    For Free the Slaves, we knew things were changing when the 
death threats started. And I know that, that's a common 
occurrence among many people in this room. Fortunately, it 
doesn't happen all that regularly for Free the Slaves--we're 
fortunate in that manner--but with the mission of ending 
slavery, we all, together, need to accept that, that's going to 
happen, not least of which because any time any of us succeeds 
in our work, criminals lose power and money. It's going to keep 
happening.
    This particular threat was an indication that Ghana's 
trafficking law, and actually, the threat of using that law, 
was having an impact. So while it was a horrible occurrence and 
we raced to make sure that everyone was going to be safe while 
they continued their work, we also knew that this was a success 
factor. And this is the case in every case where the rule of 
law is used to benefit antislavery work. It is felt as much by 
the slaveholder as it is felt by the two boys, in this case, 
who became free.
    So in, roughly, 2007, two brothers--ages 6 and 8--were 
trafficked by a woman named Comfort Sam in Ghana. They were 
brought to the Lake Volta region. And as you've probably 
guessed, they were forced into the fishing industry. These boys 
were forced to spend more than 12 hours a day out in the boats, 
usually with no food during that time. When the nets got 
tangled, the slaveholder threw them overboard so that they 
could go down and untangle the nets. The boys lived in fear, as 
one might imagine, of getting tangled in the nets themselves 
and not being able to come up for air and drowning.
    Our local partner, Challenging Heights, uncovered the 
situation and went immediately to the slaveholder, Comfort Sam, 
actually, and her husband, Sammy and demanded that the boys be 
released. But they would not budge. Actually, moral suasion, in 
many cases around Lake Volta works when community organizations 
will put enough pressure on the slaveholders and their 
neighbors to make them relent. But in this case, they would 
not. The field workers then did what they always do in these 
situations: go to the local police. Now, this didn't always 
work, but in recent years, it has been working better. And in 
this case, it did.
    The local police said to Comfort Sam and Sammy, you must 
bring these boys to the police station tomorrow. And this is 
when Comfort Sam started taking even more missteps. That night, 
she had her husband bring the boys to a faraway village and 
just dump them alone. The next morning, because of the 
community outreach that this group had been doing, a community 
worker--good Samaritan--noticed the boys, figured out what was 
going on and called our partner, who got the medical car and 
brought them to police so that they could give their statement, 
and then brought them to a child slave rehabilitation center. 
So after three years of this, the boys were free.
    It was really a turning point when there was the real 
threat of law enforcement. And that is the big lesson here, for 
us. This is really where the value of the United States State 
Department emphasis on national anti-trafficking laws and on 
prosecution is really visible, and especially where there's a 
successful partnership between civil society and law 
enforcement. Because this trafficker would not be behind bars 
today, for nine years--the first trafficking conviction in 
Ghana under this 2005 law for the fishing industry--if it 
hadn't been for the civil society. And likewise, the boys 
wouldn't be free if there wasn't that real threat of use of 
police.
    So in looking to the future, understanding that we have 
this solid base to build upon, what is next? There are two 
common criticisms of the TIP reporting process and the related 
diplomacy that perhaps point to how to help maximize the use of 
the process itself. The critical truth is that there's not 
enough funding and there's not enough influence for our common 
fight against slavery. There's just not.
    There's a reasonable argument that's made sometimes that 
the countries that need the most drastic improvements are also 
the countries that need the most technical assistance and 
funding in order to get there. Without this assistance will 
there really be significant improvements? Even if the funding 
was not an obstacle, there remains the serious challenge of not 
enough influence in some areas of the world with the highest 
incidences of trafficking.
    How can the United States government and other governments 
have an impact in these countries where diplomacy is simply not 
effective, or is not working quickly enough? For example, what 
about the countries that remain on tier three and consistently 
do not improve? Are we simply damning those people inside that 
country to slavery for those who are enslaved? Also, what about 
the countries that simply are not responsive to U.S. pressure?
    We know that there are no easy answers, but the U.S. 
government has already pointed the way and taken the lead in a 
possible way forward that actually addresses both challenges, 
to a certain extent. The 2008 TVPRA includes a mandate to 
incorporate what is called a slavery lens throughout U.S. 
international assistance. And this is to ensure that assistance 
programs in the United States do not run counter to U.S. anti-
trafficking policy.
    If you're unfamiliar with the slavery lens, recall the 
profound and positive impact that the gender lens had, 
implemented with international development in the 1980s. It's 
simply adding the perspective of human trafficking and modern-
day slavery into the common work of human rights, democracy-
building, education, et cetera. And these are all inextricably 
linked, and of course, we have to deal with them all together, 
and really harnessing the power of international aid 
organizations is one way to do that.
    At best, incorporating the slavery lens within 
international development assistance can have that same money 
do double duty. We have antislavery outcomes at the same time 
as those funds are achieving their other aims. At the very 
least, the development dollars with the slavery lens 
incorporated can prevent funds from inadvertently being used in 
ways that cause people to fall into slavery. And sadly, 
tragically, this is happening today.
    For example, last week alone, I received a communication 
from our Nepal director who reported this tragic situation. 
There's a lovely, well-meaning lone community program in a 
village in Nepal. And this was designed so that villagers could 
take out a low-interest loan and then use it for income-
generating activities. However, a couple of the members of this 
group used that money to follow specious job opportunities 
overseas, which were actually trafficking ruses.
    So this donor, unfortunately, had to learn that their hard-
earned dollars actually had not gone into community incomes, 
but had gone into the pockets of traffickers. And it had an 
insidious twist, of course, in that human beings were enslaved. 
And this situation takes additional law enforcement, takes 
additional social services, economic empowerment to make right.
    In contrast, Free the Slaves tested the implementation of 
the slavery lens in Nepal--actually, in other communities. And 
this is through working with the World Bank in their Nepal 
program and the U.K.'s forestry program there. And these are 
large anti-poverty and environmental programs that were already 
existing. What we've done is simply make sure that all the 
workers are trained in antislavery and trafficking and they 
conduct anti-trafficking, antislavery training along with 
whatever else they're doing. They also keep an eye out to be 
able to detect trafficking and slavery cases.
    These efforts alone, even though this is just a pilot for 
us, are reaching 600,000 households in Nepal over the next 
year. And these are already the families that are most 
vulnerable to slavery and trafficking, because they had already 
been detected as being the poorest of the poor in these 
communities. And this is all with minimal additional cost to 
the core programs.
    Free the slaves is beginning to work with USAID in a 
similar way to implement this slavery lens mandate. Other donor 
governments, many of the OSCE states, could join the United 
States and the U.K. in implementing the slavery lens. And this 
really does help harness additional aid. If only the world's 
top four donor countries, all of them OSCE states, were to 
implement the slavery lens throughout all of their programs, it 
would affect more than $50 billion in aid each year.
    Some of these benefits are directly quantifiable. For 
example, when a family is detected to be in slavery and they 
are enslaved, they become something that is quite different in 
their community. They become a consumer. That sounds odd to us. 
Many of us are fighting against consumerism. However, when a 
person comes out of slavery, what they mean by being a consumer 
is suddenly being able to buy two meals a day, instead of 
eating the one that the slaveholder gives them, or three meals 
a day; buying schoolbooks for their children. And where are 
they buying these things? From the local shops. They don't have 
transportation to go out to the larger communities. They're 
buying them right there in those communities that are the 
poorest of the poor.
    Ironically, some of those shops are owned, of course, by 
the wealthiest people in the community: the slaveholder. So 
we've actually found cases where slaveholders are making more 
money after their slaves are freed. In addition, there are 
other sought-after development outcomes--decreased domestic 
violence when people are freed sustainably, because it also 
involves training about gender equality and such; 
anticorruption measures because people are no longer willing to 
see their police be corrupt.
    We call these added benefits the freedom dividend. And in 
some, we're really finding that doing antislavery work can 
actually bring about some mainstream development aims that we 
all want anyway. However, what may be even more critical than 
the funding is access and influence. And this is precisely in 
the regions with very high incidences of slavery. Often, 
slavery is taking place in locations at great distance from 
power, from government, even from multinational corporations. 
It thrives in places where law enforcement and basic government 
services are almost insignificant and where they are 
desperately corrupted.
    In such places, countries' tier ratings make very little 
difference. They may make a difference in the capital city, and 
that is a very good step that we fully support. Are they making 
a difference in the communities where most slavery is 
happening? And I think we all have to answer that, that is no. 
So in the farm field, the mine, the brothel, the home where 
slavery is occurring, we need to find a different way, an 
additional way.
    Often, the only outside presence with the resources and the 
potential to bring about positive change in these communities 
are small organizations that are funded by international 
development agencies. For all of these agencies' limitations, 
their reach is virtually unparalleled. No other institutions 
are reaching them. The mandate of the State Department is to 
rank countries based on the extent of government action to 
combat trafficking according to minimum standards defined by 
Congress.
    In future years, Free the Slaves urges Congress to consider 
whether a minimum standard for donor governments should include 
incorporating the slavery lens throughout their assistance 
programs so as to prevent unintended consequences, as well as 
to leverage additional resources for antislavery aims without 
adverse effects to development programs. And what we found is 
actually to the contrary; it's to the benefit of development 
programs.
    The U.S. government has taken that step. Free the Slaves 
believes that other donor governments should be similarly 
responsible. To this end, Free the Slaves encourages the State 
Department and its continued forward progress in the TIP 
reporting process in the countries where it wields action-
inducing influence. Where it does not, Free the Slaves urges 
Congress to enact additional minimum standards or other 
incentives that help achieve more influence, resources and 
impact for the most needy. Thank you.
    Mr. Cardin. Well, thank you for your testimony. We've been 
joined by Congresswoman Richardson. It's nice to have you with 
us today. Ms. Burkhalter?

 HOLLY J. BURKHALTER, VICE PRESIDENT FOR GOVERNMENT RELATIONS, 
                 INTERNATIONAL JUSTICE MISSION

    Ms. Burkhalter. Thank you for inviting International 
Justice Mission to join you, Chairman Cardin. It's a pleasure 
to see my old friend, Chris Smith. I'm delighted to be here on 
behalf of our organization. I had hoped to bring you as a 
witness the head of our investigations department, who is 
responsible for all of our undercover work abroad in our 14 
overseas offices, investigating not just the crime of 
trafficking and slavery, but also, we work on sexual violence 
and property-grabbing--property expropriation from widows and 
orphans.
    But he's just back from about a month in the field working 
on police training programs with some of our partners and I 
could not drag him up here, as jetlagged as he was. So now you 
have to put up with me. But it gives me a chance to thank you, 
all three of you, for your interest and your leadership on this 
important issue.
    And just waxing slightly nostalgic, it being the 10th 
anniversary of the Trafficking Victims Protection Act, it 
allows me to say that after 30 plus years in the human rights 
field, there is something unique about this human right 
violation. And I want to dwell on it just for a moment. I've 
worked, in my many, many, many years with NGOs, including Human 
Rights Watch, Physicians for Human Rights, and my current work 
with International Justice Mission, as well as my seven years 
on Capitol Hill.
    I've worked on many, many, many different kinds of 
terrible, terrible crimes--genocide and war crimes, some 
torture and rape and blood diamonds, and we've done a lot of 
that work together, Chris. But there's something interesting 
about the crime of trafficking and slavery, whether it is labor 
trafficking or sex trafficking--and my organization does 
casework on both kinds.
    What's interesting to me about this crime, and gives me a 
sense of particular urgency, is that it is truly and, sort of, 
uniquely stoppable by law enforcement. And the reason why is 
because it's an economic crime, fundamentally. Certainly, for 
the victims, it's a crime of gross violence and degradation. 
And I was very touched by the previous witness describing the 
sequela of trafficking and slavery to be very much akin to that 
experienced by torture victims. I think that is correct. That 
is what we see among our thousands of clients of both kinds of 
slavery--sexual exploitation, as well as labor slavery.
    But in terms of the perpetrators, it's an economic crime. 
And it is thus uniquely, I think, stoppable by effective law 
enforcement in ways that, say, child rape or other crimes that 
are very common, but how do you create a deterrent against 
that? Of course, you need law enforcement, but what will deter 
sick individuals from certain kinds of crimes, or how do you 
deter a genocide when a whole government is involved are 
baffling. This is not baffling. We actually know what stops 
economic crimes. What stops them and what deters criminals is 
when they see a very real possibility that they're going to go 
to jail for what they're doing.
    And then that makes the profits to be had from selling 
human flesh to be just slightly less impressive. And the higher 
the likelihood that, that supposed customer is actually an 
undercover agent from a government or from an NGO working with 
a government, the less likely or the less secure they're going 
to be offering that victim out to the public, if she or he is a 
victim of commercial sexual exploitation, for example. If the 
customers can find them, the police can find them.
    So really, the Rosetta Stone, amongst all the things that 
need to be done, first and foremost, countries' laws against 
both labor slavery and commercial sexual exploitation of minors 
and those forced have to be enforced. And what IJM does in our 
14 overseas offices is literally try to make countries' laws 
work for the poorest. And we work with governments, not against 
them. We collaborate--we have to collaborate. You cannot create 
a deterrence against the crime of trafficking by going in and 
buying slaves out of a brothel, as tempting or as much as you 
might want to do that.
    That does not create deterrence. The trafficker simply goes 
out and gets another one. But if you work with local police, 
you help them with undercover work, you bring these cases to 
their attention and then train them and work with them and 
identify the good actors--and there always are some, no matter 
how corrupt a police force is. There's always people you can 
work with. And then you go out and the police do their job with 
your assistance to rescue that victim and, simultaneously, 
arrest the perpetrators. Victim relief without perpetrator 
arrest and accountability is important--you get the victims--
but another victim will take her place.
    So we strongly feel that programs that provide police 
assistance that's not just a one-off training at a nice hotel 
somewhere, but that engages with police so that you know who 
the good guys are and who the bad guys are and you work with a 
specially trained anti-trafficking unit, which has been very 
helpful to us, so that you just literally do an end run around 
police that have been accommodating the trade for all these 
years. So we've learned a lot in the field. And if I had about, 
you know, six days--or 20 hours--I'd tell you all about it.
    But what I'm going to do, right now, instead, is turn from 
IJM's work and talk a little bit about this interesting 
creation of Congress, and that is the trafficking in persons 
office at the State Department. Because I think this unique 
crime that is so vast, but that is also uniquely vulnerable to 
pressure from effective law enforcement and from public justice 
systems that work, and from local NGOs like those that Free the 
Slaves work with, this effort has been aided immensely by this 
extraordinary creation of Congress.
    I have worked on lots of human rights law. I've written a 
lot of it. But there's never been anything like the TVPA of 
2000 and its improvements over the years, because you created 
unique capacities within the government that we don't have for 
other kinds of human rights violations. We don't have this for 
genocide. We don't have this for rape--and I wish we did. But 
what we have here in one agency, staffed by a very small number 
of people, I might add: diplomatic expertise and monitoring 
expertise. Look what they did. Look at that. That's about six 
peoples' work.
    And they work around the clock, and they are the unsung--
Mark Taylor and his team are the unsung abolitionist heroes of 
our day. And they use that to make it a living document. It 
saves lives because they are in dialogue with counterparts 
abroad about the individual victims, about the perpetrators, 
about the gaps and infirmities in local justice systems. And 
they know it cold because they're providing this kind of ever-
more-excellent reporting and monitoring so that we have this 
diplomatic and monitoring function that you created in the 2000 
act.
    We also have a grant-making function, which I think is 
very, very important. It's often overlooked because it's very 
small. The TIP office has about $22 million to spend this year, 
and Congress always boosts up the numbers. The executive 
branch--Republic and Democrat alike--lowball it and Congress, 
which likes the TIP office--and for good reason--brings those 
numbers up. But we really--$22 million in the world we live in 
over the dozens and dozens of countries where they're making 
grants to NGOs, including IJM, is not a realistic way to face 
the coming decade.
    They have proven to be good stewards of their grant money, 
and they need more of it. And it's for two reasons. One, I 
think even though the United States provides other anti-
trafficking systems through USAID and other spigots, I have to 
say that the trafficking in persons office gets the resources 
closest to the victims and the perpetrators. And they know it 
best, because they link it with our diplomacy that you see 
reflected in that report. And to have a grant program that will 
help governments deal with the very problems the TIP diplomats 
are identifying is just strategic, and it's smart.
    And I think it's important that we have more carrots for 
them to use. A, the developing country governments need it. But 
B, I think TIP is seen as the kind of in-house nag at the State 
Department. And with resources to help fix the problems they 
identify, I think we'll get more buy-in from our regional 
representatives and the powerhouses at the State Department, 
which, all too often, I'm afraid, are on the opposite side of a 
disagreement and are more likely to defend the record of a 
country with whom we have an important relation than join our 
friends at TIP.
    We can have TIP doing the diplomacy alone. They need to 
have the fulsome support of the rest of the State Department 
bureaucracy. We have a secretary of state who is deeply 
committed to these issues. But the TIP issues need to be 
shared. The trafficking office is on point, but we need to have 
resources so that they aren't seeing--the TIP diplomats--aren't 
seen as some kind of a skunk at the garden party when we deal 
with our overall relationships, particularly with important 
countries.
    As we look towards equipping the TIP office for the next 
decade and reflect on the excellent job that they have done, 
it's worthy of note that, unlike any other human rights issue 
I've worked on, there has never been congressional oversight of 
the work of any administration. It's a bipartisan and 
nonpartisan issue--as there has been on slavery and 
trafficking. And that's a credit to Mr. Smith and to many 
others in Congress. But the more interest you have, the more 
interest that the executive branch has. And I think one of the 
reasons that the TVPRA implementation has been so successful is 
because of these oversight hearings. And there hasn't been one 
for a couple of years and I'm very happy that there's one 
today. And I thank you for it.
    You'll get a chance to look deeply into these issues 
because the TVPRA will again have to be reauthorized in 2011. 
And I think it would be great if we could really look to the 
future and be more visionary about abolishing slavery and 
trafficking and equipping this office to do it well. That means 
giving them more money and more staff. That goes without 
saying. I'd like to ask you to keep an eagle eye on the foreign 
aid reform process.
    Foreign aid reform needs to happen. There's good work being 
done. But I've been hearing some rumblings about consolidating 
TIP's function at USAID, consolidating the Trafficking in 
Persons Report with the regular human rights report. There's 
a--that's a reasonable and rational recommendation, but please 
don't do it. Do not do it. It is precisely the standalone and 
expert nature of both the reporting and the grant-making that 
has made this office such a success.
    And it has been such a success that women working on 
violence against women want to have one just like it. You know, 
they want to pull the issue out--and with good reason--pull 
that issue out of USAID and get that focused grant-making in 
the area of gender violence. It is something that people want 
to emulate. Please don't change one of the things that has been 
such a success.
    So watch that space, both of you, in your respective 
perches at Senate Foreign Relations Committee and House Foreign 
Affairs Committee. And in closing--and forgive me for going 
over time on a busy day--I want to just direct your attention 
to these countries that are on, for the second year, on the 
tier two watch list. As you know, that watch list area was 
created by Congress to bring special scrutiny to countries, 
including some very good friends of the United States, that 
aren't quite bad enough to be beyond the pale on tier three, or 
we don't feel, diplomatically, like we're ready to put them 
there.
    But they are supposed to get special attention, and it has 
kind of turned into a parking lot for certain countries that 
have been on there six, seven years. And Congress put an end to 
that in the last reauthorization of the TVPA in December, 2008, 
and said, okay, two years and then it's up or down or out. And 
there are some important countries on that tier two list for 
the second year. And that means this year is a banner year for 
effective diplomacy. Because those countries don't know whether 
they're going to tier three or they're going up to tier two.
    And this will be the time to lay very important issues 
before them. Let's take the case of the Philippines, where IJM 
has two offices. It's a government that has a terrible 
trafficking problem, have terrible sexual exploitation of 
children. We have good working relationship with the 
government, but they have a terrible problem in their courts. 
It takes, on average, five years to get a conviction for a 
trafficking case. That is not a deterrent. They had exactly 
eight convictions on sex trafficking last year in a country 
where there are thousands and thousands of victims.
    This is the year for the Philippines, with the new Aquino 
government, which has expressed an interest in really getting 
on top of this problem--this is the year for lots of diplomacy, 
lots of help, but also, lots of seriousness. Because there's 
many things that need to be done, and the Filipinos know what 
they are. They need to eliminate corruption throughout the 
court process, within the police, get specialized police units 
up and working well, and start arresting perpetrators on a 
regular basis and closing down establishments permanently that 
offer children. That problem's not even going to begin to go 
away.
    And I'm only using the Philippines as an example because I 
know it well, but it is the second year on tier two watch, so 
it knows and we know that something needs to happen. So I 
really would urge you to urge your colleagues to keep an eye on 
India, the Philippines, Russia--other countries with problems 
that are friends of the United States, but that need a boost 
and maybe also need a nudge in this area. Well, I've got lots 
more to say, but I welcome the chance to be here with you.
    Mr. Cardin. Well, let me tell you, both of your testimonies 
were extremely important. And I did not want to interrupt your 
presentations because I think they were extremely valuable to 
our oversight function. I'm going to ask our colleagues to try 
to limit this round to five minutes so that we can be out at 
the planned time for the use of the room. And let me make one 
observation first, and that is, it's important to put a face on 
this issue, so I really appreciate, Ms. Smith, your testimony 
about the two boys.
    We hear numbers, but unless you see the people--I've been 
to victim centers and we had a chance to talk to the people 
who've been victimized--and understand how this is affecting 
families and people--you've got to personalize it a little bit 
more. And as important as the TIP report is, you've got to 
personalize this. So I encourage you to continue to do that.
    Both of you raised the issue of the importance of foreign 
assistance in the soft power and the reauthorization of our 
foreign assistance programs. Clearly, the United States is 
putting a higher priority on foreign aid today, as a major tool 
for diplomacy. The lens that you talk about--the slavery lens--
of looking at foreign assistance is an interesting barometer. 
It would be interesting to see how that could be incorporated 
into the TIP report for the donor countries.
    My guess is, we'll get some resistance on that. And I say 
that in conjunction with the fact that there are a lot of 
requirements on government agencies for reporting. None are as 
visible or as well-documented as trafficking or the human 
rights reports, generally. And I agree, Ms. Burkhalter, with 
your point about preserving what is right, and that is the TIP 
report. We will be under challenge, though, as other well-
intended groups want to get this type of visibility by 
government efficiency experts saying let's combine everything 
into one. So I think it's something we really do need to be 
very careful about.
    So I guess my question or comment to you is that I think 
you really need to concentrate on the current efforts on soft 
power and foreign assistance, as it will give new opportunities 
for us to enforce antislavery efforts through our aid programs. 
We certainly don't want to see our economic assistance to help 
small businesses being used to promote slavery operations. And 
that's something that we have to demand accountability.
    So I welcome your suggestions as to how this can be done 
effectively, working with the human rights advocates, but not 
allowing us to diminish the importance of the separate report 
on TIP. So that's an open-ended invitation, not necessarily to 
respond to a question, but an open-ended invitation to work 
with us as we move forward. Congressman Smith?
    Mr. Smith. Thank you very much, Mr. Chairman. I want to 
thank our two very distinguished witnesses for their passionate 
commitment to ending modern-day slavery. You really are an 
example, and I know Holly has helped, as she put it, write some 
of our laws and has provided totally timely and very valuable 
guidance, not just on this, but also on torture victims relief 
and other issues from the past--14 years with Human Rights 
Watch, nine years with Physicians for Human Rights and all of 
the advocacy with IJM now is been tremendous what you've done, 
so I do want to thank you.
    Ms. Burkhalter. Just getting old, Chris, the long and the 
short of it.
    Mr. Smith. You did bring up the in-house powerhouses within 
the State Department. I'm glad you so lifted up the TIP office 
and its employees, beginning with its ambassador, Luis CdeBaca, 
for the valiant effort they wage against very powerful in-house 
interests, who do not want their diplomacy in any way 
complicated with this issue of human trafficking.
    And I find it--I know Chairman Cardin finds it as he 
travels, I'm sure we all do. You know, human rights is an 
irritant to many. They like to have the low-level foreign 
service officer who handles the portfolio of human rights--he 
can handle it, or she. Now that has changed with some of our 
ambassadors who have done extraordinary work, so you can't 
broad-brush it. But in the beginning, you could. There was such 
pushback on the TIP effort. It was very slow, even after the 
law was enacted, in getting put into place.
    I actually chaired a hearing--an oversight hearing--and the 
Bush administration was--it said ``shall''--you shall do this, 
you shall do that. And they didn't want to do it, or whatever 
the reason was. So we had an oversight hearing and said, you 
will do it. But they were very upset because, we were getting 
in their face. That has to be done. It's benign in your face. 
And you do it so extraordinarily well.
    You know, you try to work with the offending governments, 
find the good police, as you said. There are good apples in 
every police force. There's also a whole lot of bad ones. But 
you know, nine countries--eight countries were sanctioned, nine 
were waived. There are six in the OSCE region--Azerbaijan, 
Moldova, Russia, Turkmenistan, Tajikistan and Uzbekistan--who 
are in that parking lot--or used to be parking lot. They're 
watch list countries that will move up or down.
    And I think your point is very well taken that, that's 
where we provide maximum pressure right now to say there are 
sanctions--sword of Damocles--hanging over your head and we 
will look to impose it. So more just a comment, and then a 
question. But do you find--and you might want to answer this--
pushback? I know Luis CdeBaca wages a tough fight, as did all 
of his predecessors, against DCMs, ambassadors, people in the 
hierarchy of the State Department, who say, don't put that 
country on the list. Leave China off. Leave Vietnam off. Leave 
country X, Y or Z off. Put them on the watch list. Is that your 
sense, too, that they're getting better, or is it as bad as it 
has been in the past?
    Ms. Burkhalter. I'd have to let him answer that one because 
we are in-country and a service organization and we are not a 
public critic or--of the countries where we work. Yeah, I'll 
let Lou answer that one. Excuse me, Chris.
    Mr. Smith. Okay. Again, I just want to thank you so much 
for your work. Ms. Smith, did you want to answer, or no?
    Ms. Smith. We certainly have been in conversations with 
diplomatic officials who are really struggling with these 
questions and about their own recommendations over this, 
especially with trading partners. And that's one of the reasons 
why we feel that collaboration among trading partners is going 
to be more and more important, and especially ensuring that 
trade agreements are actually antislavery instruments, as well.
    I think we've all got a lot more work to do on ensuring 
that, but especially where there is a trading relationship, we 
all know, of course, that there are going to be extra 
sensitivities. We need to turn those sensitivities in the favor 
of people in antislavery work and of people in slavery today.
    Mr. Smith. Thank you.
    Mr. Cardin. Congresswoman Richardson.

 HON. LAURA RICHARDSON, A MEMBER OF CONGRESS FROM THE STATE OF 
                           CALIFORNIA

    Ms. Richardson. Thank you, Chairman and Senator. Let me, 
first of all, say that I want to thank you for allowing me to 
participate in today's hearing, and also to allow me to go to 
the OSCE parliamentary meeting that we had back in February. 
And unfortunately, I was not able to participate with you this 
last week.
    I also wanted to acknowledge--and I know she just stepped 
out, but I do want to note her for the record--Dr. Jama 
Rinaharal. And I'm sorry if I butchered her name there, but I 
first met her when I attended the OSCE meeting, and I think her 
work in this issue and her passion to work with us in a 
collaborative way, speaking about partnerships and what we can 
do for diplomacy--I think she's leading in that effort. And so 
I was inspired by meeting her and look forward to working with 
her.
    A couple things regarding the TIP program, which you 
mentioned in your testimony. When we had appropriations, I did, 
in fact, support increasing it by three times, and 
unfortunately, the administration did not have the level that 
many of us would like to have seen. But I think various of us 
have weighed in on that issue and hope to see the improvement, 
and appreciate your comments, in terms of recommendations of 
what to do, of consolidating.
    To Congressman Smith, of course many of us have watched 
your very heroic efforts that you had just in this last year, 
and it has been commendable and I think brought to the point 
that we've heard much about the sexual trafficking and the 
slavery that's being done, but the custodial battles are 
equally offensive and have not had the legal push that's needed 
to change that. And so I commend your efforts and look forward 
to working with you.
    Finally, what I want to say: I think much focus--
television, you know, articles, movies and so on have talked a 
lot about the sexual exploitation that we see of women and 
children. For me, I represent an area in Long Beach where we 
have the largest ports in the United States, and the third 
largest in the world. And not to minimize those issues, but 
what I hope to spend my time in the partnership with Sen. 
Cardin, and also, Congressman Smith, is really looking at some 
of the labor-trafficking issues.
    And it is encompassed in the report, but I think we're 
going to have to get at more of it. Because when money is 
behind it, it allows the others to fall in the shadows. And so 
we have to go beyond the agriculture, which we've spent some 
time on. We're doing some of the manufacturing, in terms of 
textiles.
    But really, when you look at building of the televisions, 
assembling video games, you know, making tennis shoes and so 
on, that is really the money, I believe, that drives some of 
the other issues that we're seeing. So I'm kind of the new kid 
on the block, but I look forward to joining this team and 
helping in any way that I can. Thank you very much.
    Mr. Cardin. Well, we welcome you to the team. We need all 
the help we can get, so it's nice to see your interest in this 
area. Let me again thank our two witnesses. I'm encouraged by 
your testimonies, particularly the cooperation you're receiving 
in countries. I must tell you, I've traveled to a lot of 
countries where we've had serious issues with law enforcement 
even to acknowledge that trafficking exists.
    And as Congressman Smith points out, frequently, in many 
countries, we have a hard time with the local police 
authorities to recognize those who have been trafficked are 
victims, rather than criminals. So that's been a continuous 
problem, so I'm very encouraged by your testimony about their 
being receptive in countries to work with you--maybe not 
collectively, but you can find, at least, elements to work with 
you to help rescue those who have been victimized.
    And we certainly want to promote those best practices, so I 
encourage you to give us the information so we can showcase 
those countries or those communities where they have taken this 
issue with the type of attitude that it requires to identify 
those who have been victimized. This will continue to be a 
major issue of interest to the Helsinki Commission and, as you 
have acknowledged, this is an oversight hearing that was long 
overdue, and we're glad that we could have the quality of the 
witnesses here today to help us in our responsibility on this 
very important subject. And with that, the Helsinki Commission 
will stand adjourned.

                                  [all]



  

  

This is an official publication of the

Commission on Security and

Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document

developments and trends in participating

States of the Organization for Security

and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely

reproduced, in any form, with appropriate

credit. The Commission encourages

the widest possible dissemination

of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides

access to the latest press releases

and reports, as well as hearings and

briefings. Using the Commission's electronic

subscription service, readers are able

to receive press releases, articles,

and other materials by topic or countries

of particular interest.

Please subscribe today.
</pre></body></html>
